<html>
<title> - THE STATE OF PIPELINE SAFETY AND SECURITY IN AMERICA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
          THE STATE OF PIPELINE SAFETY AND SECURITY IN AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2019

                               __________

                           Serial No. 116-28
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                        
                        
                        
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
39-891 PDF             WASHINGTON : 2020                         
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
                         Subcommittee on Energy

                        BOBBY L. RUSH, Illinois
                                 Chairman
SCOTT H. PETERS, California          FRED UPTON, Michigan
MIKE DOYLE, Pennsylvania               Ranking Member
JOHN P. SARBANES, Maryland           ROBERT E. LATTA, Ohio
JERRY McNERNEY, California, Vice     CATHY McMORRIS RODGERS, Washington
    Chair                            PETE OLSON, Texas
PAUL TONKO, New York                 DAVID B. McKINLEY, West Virginia
DAVID LOEBSACK, Iowa                 ADAM KINZINGER, Illinois
G. K. BUTTERFIELD, North Carolina    H. MORGAN GRIFFITH, Virginia
PETER WELCH, Vermont                 BILL JOHNSON, Ohio
KURT SCHRADER, Oregon                LARRY BUCSHON, Indiana
JOSEPH P. KENNEDY III,               BILL FLORES, Texas
    Massachusetts                    RICHARD HUDSON, North Carolina
MARC A. VEASEY, Texas                TIM WALBERG, Michigan
ANN M. KUSTER, New Hampshire         GREG WALDEN, Oregon (ex officio)
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
TOM O'HALLERAN, Arizona
LISA BLUNT ROCHESTER, Delaware
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
    
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
    Prepared statement...........................................     2
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     3
    Prepared statement...........................................     4
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     5
    Prepared statement...........................................     7
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     8
    Prepared statement...........................................     9

                               Witnesses

Howard ``Skip'' Elliott, Administrator, Pipeline and Hazardous 
  Materials Safety Administration................................    11
    Prepared statement...........................................    14
    Answers to submitted questions...............................   155
William Russell, Acting Director, Homeland Security and Justice, 
  Government Accountability Office...............................    23
    Prepared statement...........................................    25
    Answers to submitted questions...............................   161
Lawrence Friedeman, Commissioner, Public Utilities Commission of 
  Ohio...........................................................    40
    Prepared statement...........................................    42
    Answers to submitted questions...............................   162
Carl Weimer, Executive Director, Pipeline Safety Trust...........    77
    Prepared statement...........................................    80
Andrew J. Black, President and Chief Executive Officer, 
  Association of Oil Pipelines...................................   102
    Prepared statement...........................................   104
    Answers to submitted questions...............................   164
Christina Sames, Vice President, Operations and Engineering 
  Services, American Gas Association.............................   111
    Prepared statement...........................................   113
    Answers to submitted questions...............................   166

                           Submitted Material

Letter of May 1, 2019, from American Public Gas Association to 
  Mr. Rush and Mr. Upton, submitted by Mr. Rush..................   137
Letter of April 29, 2019, from Donald F. Santa, President and 
  Chief Executive Officer, Interstate Natural Gas Association of 
  America, to Mr. Rush and Mr. Upton, submitted by Mr. Rush......   140
Letter of April 30, 2019, from Nick Wagner, President, National 
  Association of Regulatory Utility Commissioners, to Mr. Rush 
  and Mr. Upton, submitted by Mr. Rush...........................   150
Letter of May 1, 2019, from Brigham A. McCown, Founder and 
  Chairman, Alliance for Innovation and Infrastructure, to Mr. 
  Rush and Mr. Upton, submitted by Mr. Rush......................   152


          THE STATE OF PIPELINE SAFETY AND SECURITY IN AMERICA

                              ----------                              


                         WEDNESDAY, MAY 1, 2019

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Bobby L. Rush (chairman of the subcommittee) presiding.
    Members present: Representatives Rush, Peters, Doyle, 
McNerney, Loebsack, Butterfield, Welch, Schrader, Kennedy, 
Veasey, Kuster, Kelly, Barragan, O'Halleran, Blunt Rochester, 
Pallone (ex officio), Upton (subcommittee ranking member), 
Latta, Rodgers, Olson, McKinley, Griffith, Johnson, Bucshon, 
Flores, Hudson, Walberg, Duncan, and Walden (ex officio).
    Staff present: Omar Guzman-Toro, Policy Analyst; Zach 
Kahan, Outreach and Member Service Coordinator; Rick Kessler, 
Senior Advisor and Staff Director, Energy and Environment; John 
Marshall, Policy Coordinator; Lisa Olson, FERC Detailee; Tuley 
Wright, Energy and Environment Policy Advisor; Mike Bloomquist, 
Minority Staff Director; Jordan Davis, Minority Senior Advisor; 
Peter Kielty, Minority General Counsel; Mary Martin, Minority 
Chief Counsel, Energy and Environment; Brandon Mooney, Minority 
Deputy Chief Counsel, Energy; Brannon Rains, Minority Staff 
Assistant; and Peter Spencer, Minority Senior Professional 
Staff Member, Environment and Climate Change.
    Mr. Rush. The subcommittee will now come to order.
    The Chair now recognizes himself for 5 minutes for the 
purposes of an opening statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    I want to thank all the witnesses who are attending this 
very important hearing today on pipeline safety and security. 
And I want to welcome all of our distinguished panelists that 
will be appearing before us today on two separate panels.
    I also want to express my disappointment and my deep-seated 
concern that we will not be hearing from one of the agencies 
responsible for oversight of pipeline safety, TSA, who actually 
presides over some of the most disturbing outstanding issues 
that need to be addressed by the members of this subcommittee.
    While we did invite TSA to appear before us today, so that 
the members of this subcommittee could address many of the 
issues that were spelled out in a December 2018 GAO report, TSA 
declined to send a witness. And frankly, I find it to be 
unacceptable and it will be addressed as we move forward. TSA 
needs to answer the questions that we have, that members of 
this subcommittee have and want to get answers to.
    In the meantime, I look forward to engaging with the 
panelists that are present with us today, examining the state 
of pipeline safety and security as it currently stands before 
the Nation.
    I have the pleasure of representing portions of Will 
County, Illinois, as part of the First Congressional District 
of Illinois. And Will County has the dubious distinction of 
accounting for 8 percent of all the pipelines in my State, and 
officials there were able to provide my office with critical 
insight into how pipeline safety and security protocols play 
out on the local level.
    As we all know, local communities are always the ones most 
directly impacted when something goes wrong with America's 
pipeline, as we have, unfortunately, witnessed far too often in 
areas extending from the Merrimack Valley in Massachusetts to 
Aliso Canyon and San Bruno in California.
    From county first responders, who are usually the initial 
actors on the scene, to local emergency management agencies, 
who are required to participate and carry out emergency 
preparedness exercises to plan and prepare for disasters, local 
agencies play a huge role in helping to mitigate disasters, and 
they are not always provided with the adequate funding or 
resources to do the job which we require of them.
    Many times when private companies are mandated by Federal 
law to comply with consent decrees, they pull in local 
resources, such was the case with a recent spill in Romeoville, 
Illinois. Will County officials were required to contribute 
many hours of manpower and staff in order to help Enbridge meet 
its court-ordered decree, but they were not compensated any 
money for this huge responsibility that they had to accept.
    While there is the Hazardous Materials Emergency 
Preparedness, HMEP, grant program, it appears that there are 
some severe limitations upon this program. The HMEP or TAG 
program operates with limited and unpredictable levels of 
funding and has burdensome restrictions on how that money may 
be utilized.
    I look forward to today's hearing and to a robust 
discussion on both sides of the issue of this outstanding 
priority issue that is before us.
    And with that, I yield back the balance of my time. And 
now, I recognize my friend and colleague, my friend from 
Michigan, Ranking Member Upton.
    [The prepared statement of Mr. Rush follows:]

                Prepared Statement of Hon. Bobby L. Rush

    I want to thank you all for attending this very important 
hearing today on pipeline safety and security, and I want to 
welcome all of our distinguished witnesses that will be 
appearing before us on two separate panels.
    I also want to express my disappointment and concern that 
we will not be hearing from one of the major agencies 
responsible for the oversight of pipeline security, the 
Transportation Security Administration (TSA) who actually 
preside over some the most disturbing outstanding issues that 
need to be addressed.
    While we did invite TSA to appear before us today, so 
Members could address many of the issues that were spelled out 
in a December 2018 GAO report, they declined to send a witness, 
which I find to be unacceptable and must be addressed moving 
forward.
    In the meantime, I look forward to engaging with the 
panelists that are here, to examine the state of pipeline 
safety and security as it currently stands.
    I have the pleasure of representing portions of Will County 
as part of the First Congressional District of Illinois.
    Will County accounts for 8-percent of all pipelines in my 
State, and officials there were able to provide my office with 
critical insight into how pipeline safety and security 
protocols play out on the local level.
    As we all know, local communities are always the ones most 
directly impacted when something goes wrong, as we've 
unfortunately witnessed far too often in areas extending from 
the Merrimack Valley in Massachusetts to Aliso Canyon and San 
Bruno in California.
    From county first responders who are usually the initial 
actors on the scene, to local Emergency Management Agencies 
(EMA) who are required to participate and carry out emergency 
preparedness exercises to plan and prepare for disasters, local 
agencies play a large role in helping to mitigate disasters and 
they are not always provided the adequate funding or resources 
to do so.
    Many times, when private companies are mandated to comply 
with Consent Decrees, they pull in local resources such as was 
the case with a recent spill in Romeoville, Illinois.
    Will County officials were required to contribute many 
hours of manpower and staff in order to help Enbridge meet its 
court-ordered decree but were not compensated any money for the 
role they played.
    While there is the Hazardous Materials Emergency 
Preparedness (HMEP) grant program, it appears that there are 
some severe limitations with this program.
    The HMEP, like the Technical Assistance Grants, or TAG 
program operates with limited and unpredictable levels of 
funding and has burdensome restrictions on how the funding may 
be used.
    So I look forward to working together with my colleagues on 
both sides of the aisle, as we have done in the past, to 
examine the different types of grant programs available.
    It is important that we look at all of the different 
funding mechanisms at our disposal in order to make sure that 
we are providing our first responders, emergency management 
agencies, and all of the other critical State and local 
stakeholders with the resources they need to effectively do 
their jobs and keep all of the Nation's pipelines, and the 
communities they traverse, safe and secure.
    With that I yield the balance of my time, and now I would 
like to recognize my friend and colleague, Ranking Member Upton 
for his opening statement.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman, and also my friend for 
sure.
    This is an important hearing as we begin our work to 
reauthorize the Nation's pipeline safety laws. I want to thank 
you for making this a bipartisan effort, for working with us to 
select the witnesses and prepare for the hearing. We have a 
great track record when we work together from the very start, 
especially when it involves public safety.
    Throughout my time in Congress, I have especially 
prioritized pipeline safety. It is personal, as we had to deal 
with a bad pipeline accident in my home State. I recall the 
2010 oil spill in the Kalamazoo River, not too far from my 
district, which led to the passage of the Upton-Dingell 
pipeline safety bill in 2012. And in response to the Kalamazoo 
spill specifically, we cut down on the incident reporting time, 
24 hours now, and we upped the financial penalty for 
violations.
    In 2016, we came together again to pass another bipartisan 
pipeline safety bill, which is now set to expire in October. I 
am proud of the work that we accomplished with that bill, 
particularly the language that I was able to include requiring 
mandatory annual inspections for certain pipeline crossings, 
such as the Enbridge Line 5, which crosses the Straits of 
Mackinac at a depth of more than 250 feet below the surface of 
the water, that was built some 60 years ago.
    Mr. Chairman, as we turn to this upcoming reauthorization, 
I am grateful for the commitment from you to adopt the same 
bipartisan formula that worked so well the last two times as we 
did pipeline safety.
    I am confident that today's hearing will provide us with a 
good start. We have two panels offering a diverse range of 
views, including the Administrator of PHMSA, the Commissioner 
from the Ohio Public Utility Commission, and a representative 
from the GAO, representatives of oil and gas pipeline 
operators, and pipeline safety advocates. As one can tell from 
the witness lineup, an effective pipeline safety and security 
program requires communication and cooperation among a wide 
array of stakeholders.
    Today's hearing will also allow Members to examine GAO's 
recommendations to address significant weaknesses in TSA's 
Pipeline Security Program management. I will confess that I was 
most disappointed to learn that, while TSA was invited to 
participate in today's hearing, they officially declined to 
appear. And I guess you could say, like the Alamo, we are going 
to remember that.
    We know from the committee's oversight that TSA staffing 
issues are a major limitation. TSA has some 50,000 employees. 
Only a handful--actually, it is a handful plus one, six--are 
assigned to pipeline safety. That is not very good.
    Strengthening cybersecurity for pipelines is an issue that 
I care deeply about, and I believe that Congress does need to 
act in both the House and the Senate. I have introduced a bill, 
H.R. 370, the Pipeline and LNG Facilities Cybersecurity 
Preparedness Act, that would help address some of the 
vulnerabilities outlined in the GAO report. And although my 
bill is more focused on DOE's role, as the sector-specific 
agency for energy, I am committed to getting it over the finish 
line, and I am open-minded about ways to strengthen 
cybersecurity through our pipeline safety reauthorization bill. 
And I know that we can make it bipartisan.
    So, at the end of the day, we cannot separate pipeline 
safety from pipeline security, and we cannot allow agencies to 
carry out a turf war over jurisdiction, especially if they are 
going to refuse to come before this important committee.
    With that, Mr. Chairman, thank you again for holding the 
hearing, and I yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared Statement of Hon. Fred Upton

    Thank you, Mr. Chairman for holding this hearing to begin 
our work to reauthorize the Nation's pipeline safety laws. I 
would also like to thank you for making this a bipartisan 
effort, and for working with us to select the witnesses and 
prepare for this hearing. We have a great track record when we 
work together from the very beginning, especially when it 
involves public safety.
    Throughout my time in Congress, I have especially 
prioritized pipeline safety. It's personal for me, as it is for 
those of us who have had to deal with a pipeline accident in 
our home State. I often recall the 2010 oil spill in the 
Kalamazoo River, near my district, which lead to the passage of 
our pipeline safety bill in 2012. In response to the Kalamazoo 
spill specifically, we cut down on the incident reporting time 
and upped the financial penalties for violations.
    In 2016, we came together again to pass another bipartisan 
pipeline safety bill, which is set to expire at the end of this 
fiscal year. I am proud of the work we accomplished with that 
bill, particularly the language that I was able to include to 
require mandatory annual inspections for certain pipeline 
crossings, such as Enbridge's Line 5, which crosses the Straits 
of Mackinac at a depth of more than 250 below the surface of 
the water.
    Mr. Chairman, as we turn to this upcoming reauthorization, 
I hope that we can receive a commitment from you to adopt the 
same bipartisan formula that worked so well the last two times 
we did pipeline safety reauthorization.
    I am confident that today's hearing will provide us with a 
good start. We have two panels offering a diverse range of 
views, including the Administrator of PHMSA, a Commissioner 
from the Ohio Public Utility Commission, a representative from 
the Government Accountability Office, representatives of oil 
and gas pipeline operators, and pipeline safety advocates.
    As one can tell from the witness lineup, an effective 
pipeline safety and security program requires communication and 
cooperation among a wide array of stakeholders.
    Today's hearing will also allow Members to examine GAO's 
recommendations to address significant weaknesses in TSA's 
pipeline security program management. I was disappointed to 
learn that while TSA was invited to participate in today's 
hearing, the agency declined to appear. Going forward, I 
encourage the administration and TSA to take this matter 
seriously and cooperate with the committee.
    We know from the committee's oversight that TSA staffing 
issues are a major limitation. Even though TSA has over 50,000 
employees, only a handful are assigned to pipeline security. I 
understand that TSA only had 6 full time equivalent staff 
assigned to pipeline security in 2018. Only 6 out of 50,000 
employees!
    Strengthening cybersecurity for pipelines is an issue I 
care deeply about, and I believe Congress needs to act. I have 
a bill, H.R. 370--the Pipeline and LNG facility Cybersecurity 
Preparedness Act, that would help address some of the 
vulnerabilities outlined in the GAO report.
    Although my bill is more focused on DOE's role as the 
sector-specific agency for energy, I am committed to getting it 
over the finish line, and I am open-minded about ways to 
strengthen cybersecurity through our pipeline safety 
reauthorization bill.
    At the end of the day, we cannot separate pipeline safety 
from pipeline security, and we cannot allow agencies to carry 
out a turf war over jurisdiction. Especially if they are going 
to refuse to testify before the Energy and Commerce Committee.
    With that, Mr. Chairman, thank you for holding this hearing 
and I will yield back.

    Mr. Rush. I want to thank the gentleman.
    The Chair now recognizes the chairman of the full 
committee, Mr. Pallone, for 5 minutes for his opening 
statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    There are millions of miles of pipeline transporting 
natural gas, oil, and other commodities across the country. And 
when a pipeline fails, it can be destructive, and even deadly. 
Late last year, a failure in Massachusetts' Merrimack Valley 
caused one death, 21 injuries, and damaged over 130 homes. In 
February, a gas field explosion at a residence in Dallas, 
Texas, killed a 12-year-old and injured his family. And these 
tragic events underscore the need for a strong Federal safety 
pipeline program.
    And I want to welcome Skip Elliott, Administrator of the 
Pipeline and Hazardous Materials Safety Administration, 
pronounced PHMSA, to the committee. Administrator Elliott, I 
wish you success in your effort to manage an agency notorious 
for its inability to meet congressionally mandated deadlines 
and carry out its mission in an efficient and effective way. 
And certainly, there are dedicated career staff at PHMSA who 
work hard to make our pipelines safer, but there are too many 
outstanding mandates from the 2011 and 2016 pipeline safety 
reauthorizations that PHMSA has failed to finalize, and that is 
unacceptable.
    As part of the 2011 reauthorization, Congress required the 
use of automatic or remote-controlled shutoff valves on newly 
constructed transmission pipelines to limit damage when a 
rupture occurred. The National Transportation Safety Board 
recommended use of this technology 25 years ago, after a 
pipeline explosion in my congressional district in Edison, New 
Jersey. I was in Congress then, and yet, here we are still 
discussing the same issue.
    The 2011 law also required operators to install leak 
detection systems on hazardous liquid pipelines, but 8 years 
later PHMSA still has not finalized the rule. And in what I 
consider to be the most important provision of the 2016 
reauthorization, Congress gave PHMSA emergency order authority 
to address imminent industrywide safety hazards that pose a 
threat to life or significant harm to property or the 
environment. Yet, PHMSA has failed to implement this, too.
    And it is not all PHMSA's fault. The prescriptive cost-
benefit analysis required by the '96 reauthorization hamstrung 
the agency. If we want PHMSA to finalize more rulemakings, we 
must remove or adjust this overly burdensome requirement.
    We also need to restore the mechanisms for citizens to 
pursue legal action to compel PHMSA to fulfill its statutory 
duties. If the Federal Government can't or will not carry out 
its mandated responsibilities, citizens should have the right 
to take legal action.
    In the aftermath of the 2010 San Bruno pipeline explosion 
that killed eight people, San Francisco sued the Federal 
Government for having abjectly failed to enforce safety 
standards. Unfortunately, the court dismissed that suit because 
it found that the law did not permit mandamus-type citizen 
suits against the Government, and that was never Congress' 
intent and it must change.
    I am also extremely disappointed, as my colleague from 
Michigan said, that the Transportation Security Administration 
Administrator David Pekoske refused to testify or even send a 
witness today. And on a bipartisan basis, we invited TSA to 
testify on its pipeline security program, which the Government 
Accounting Office has criticized for having significant 
weaknesses. I am concerned that TSA lacks the resources, 
expertise in energy delivery systems, and, frankly, the 
commitment to keep up its obligations under the law. And so, 
Fred, I want to thank you for pointing that out, too.
    There was a serious security breach last week when someone 
shot at the Magellan pipeline in Minnesota, causing a release 
of over 8,000 gallons of diesel fuel. If TSA can't be bothered 
to be here to discuss this security breach and justify its 
performance to Congress, then perhaps it is time we look for 
another Federal agency other than TSA to handle this critical 
responsibility.
    And finally, I would like to thank Carl Weimer for all of 
his help over the years to this committee and Congress because 
I am told he will soon step down as the Executive Director of 
the Pipeline Safety Trust. Twenty years ago next month, the 
Olympic Gasoline Pipeline exploded in Bellingham, Washington, 
and that killed 18-year-old Liam Wood and two 10-year-olds, 
Wade King and Steven Tsiorvas. And I say their names because it 
is critical that we not forget these kids. Since then, Carl and 
the Trust have taken the outrage of that event and used it to 
improve the pipeline safety landscape, to the benefit of all of 
us.
    You know, again, the role of citizens, the role of 
individuals in drawing attention to what needs to be done here 
is very important, and I certainly want to highlight that.
    The Pipeline Safety Act reauthorization has typically been 
a bipartisan effort, and we look forward to continue working 
with colleagues on both sides of the aisle to update and 
improve this critical Federal program.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    There are millions of miles of pipeline transporting 
natural gas, oil and other commodities across the country. When 
a pipeline fails, it can be destructive and even deadly. Late 
last year, a failure in Massachusetts' Merrimack Valley caused 
one death, 21 injuries and damage to over 130 homes. In 
February, a gas-fueled explosion at a residence in Dallas, 
Texas killed a 12-year old and injured his family. These tragic 
events underscore the need for a strong Federal safety pipeline 
program.
    I want to welcome Skip Elliott, Administrator of the 
Pipeline and Hazardous Materials Safety Administration (PHMSA) 
to the committee. Administrator Elliott, I wish you success in 
your effort to manage an agency notorious for its inability to 
meet congressionally mandated deadlines and carry out its 
mission in an efficient and effective way. Certainly, there are 
dedicated career staff at PHMSA who work hard to make our 
pipelines safer, but there are too many outstanding mandates 
from the 2011 and 2016 Pipeline Safety reauthorizations that 
PHMSA has failed to finalize and that's unacceptable.
    As part of the 2011 reauthorization, Congress required the 
use of automatic or remote-controlled shut-off valves on newly 
constructed transmission pipelines to limit damage when a 
rupture occurs. The National Transportation Safety Board 
recommended use of this technology 25 years ago after a 
pipeline explosion in my Congressional District in Edison, New 
Jersey. Yet, here we are, still discussing this issue.
    The 2011 law also required operators to install leak 
detection systems on hazardous liquid pipelines--but 8 years 
later, PHMSA still has not finalized a rule. And in what I 
considered to be the most important provision of the 2016 
reauthorization, Congress gave PHMSA emergency order authority 
to address imminent, industrywide safety hazards that pose a 
threat to life or significant harm to property or the 
environment. Yet PHMSA has failed to implement this, too.
    It's not all PHMSA's fault. The prescriptive cost-benefit 
analysis required by the 1996 reauthorization hamstrings the 
agency. If we want PHMSA to finalize more rulemakings, we must 
remove or adjust this overly burdensome requirement.
    We also need to restore the mechanism for citizens to 
pursue legal action to compel PHMSA to fulfill its statutory 
duties. If the Federal Government cannot or will not carry out 
its mandated responsibilities, citizens should have the right 
to take legal action.
    In the aftermath of the 2010 San Bruno pipeline explosion 
that killed eight people, San Francisco sued the Federal 
Government for having abjectly failed to enforce safety 
standards. Unfortunately, the court dismissed that suit because 
it found that the law did not permit mandamus-type citizen 
suits against the Government. That was never Congress' intent 
and it must change.
    I am also extremely disappointed that Transportation 
Security Administration Administrator David Pekoske refused to 
testify or even send a witness today. On a bipartisan basis, we 
invited TSA to testify on its Pipeline Security Program, which 
the Government Accountability Office has criticized for having 
``significant weaknesses.'' I'm concerned that TSA lacks the 
resources, expertise in energy delivery systems and, frankly, 
commitment, to keep up its obligations under the law.
    There was a serious security breach last week when someone 
shot at the Magellan pipeline in Minnesota causing a release of 
over 8,000 gallons of diesel fuel. If TSA can't be bothered to 
be here to discuss this security breach and justify its 
performance to Congress, then perhaps it's time we looked for 
another Federal agency to handle this critical responsibility.
    Finally, I'd like thank Carl Weimer for his all of his help 
over the years to this committee and Congress because, I am 
told, he will soon step down as Executive Director of the 
Pipeline Safety Trust. Twenty years ago next month, the Olympic 
Gasoline Pipeline exploded in Bellingham, Washington killing 
18-year-old Liam Wood and two 10-year-olds: Wade King and 
Stephen Tsiorvas. I say their names because it is critical we 
not forget these children. Since then, Carl and the Trust have 
taken the outrage of that event and used it to improve the 
pipeline safety landscape to the benefit of all of us.
    Pipeline Safety Act reauthorization has typically been a 
bipartisan effort, and I look forward to continuing to work 
with my colleagues on both sides of the aisle to update and 
improve this critical Federal program this year.

    Mr. Rush. I want to thank the gentleman.
    The Chair now recognizes the ranking member of the full 
committee, Mr. Walden, for 5 minutes for his opening statement.
    Mr. Walden. Good morning, Mr. Chairman.
    Mr. Rush. Good morning.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thanks for having this hearing. I think it is 
really important that we work together to reauthorize and 
modernize the Nation's pipeline safety program.
    This is really an important hearing, and I am pleased that 
we are beginning this process on a bipartisan basis, Mr. 
Chairman, which is the tradition of the Energy and Commerce 
Committee on matters relating to pipeline safety and security.
    The Federal Government, acting through the Pipeline and 
Hazardous Materials Safety Administration, known as PHMSA, has 
an important responsibility to develop and enforce regulations 
for the safe, reliable, and environmentally sound operation of 
the Nation's 2.7 million miles of pipelines.
    Pipelines are among the safest and most efficient ways to 
transport critical fuels and feedstocks, such as natural gas 
and petroleum, to our homes and businesses. And simply put, the 
safe operation of our Nation's pipeline and safety system is 
essential to help keep prices low for consumers and drive our 
economy forward in a positive direction.
    PHMSA cannot do this important job by itself. It must 
coordinate effectively with other Federal agencies, such as the 
Department of Energy, FERC, and TSA, and especially with the 
States. In fact, it is important to recognize that much of the 
responsibility for pipeline safety falls on the States. It is 
often State pipeline safety workers who are on the front lines 
inspecting and enforcing safety requirements. And in many 
cases, it is also the States' responsibilities to regulate 
rates and ensure the adequate investments are made in pipeline 
maintenance and modernization.
    As Members of Congress, it is our responsibility to ensure 
that PHMSA and the States have enough resources and the 
appropriate tools to get the job done. With PHMSA's 
authorization expiring at the end of this fiscal year, it is 
time for us to get our work done.
    As we turn to reauthorization, I will remain focused on 
protecting public safety and consumers. These are not mutually 
exclusive goals, and I am optimistic we can find bipartisan 
agreement, as we always have when it comes to pipeline safety.
    Mr. Chairman, I hope we can get a commitment to work 
together on the drafting process from the very beginning. That 
would really be consistent with our practice from the last 
round of reauthorization, and I think it would contribute 
toward a better quality work product. So, I hope we can do 
that.
    There are many areas where I believe we can update and 
strengthen the law to drive innovation and lower the barrier of 
entry for new technologies. New technologies for pipeline 
construction and integrity management can help improve 
efficiency and safety at the same time.
    I also believe we should examine recent pipeline safety 
incidents and incorporate lessons learned in our work. We 
should also make sure to provide PHMSA with clear directions, 
recognizing they already have a backlog of congressional 
mandates. They are working on two high-priority rules for both 
gas and liquid pipelines.
    PHMSA must also finish its work on other important safety 
rules relating to pipelines valves and rupture detection, 
integrity management, class location, and public education and 
awareness. I believe PHMSA is on the right track, and I look 
forward to the agency completing this important work.
    At this point, I will close by thanking our witnesses for 
appearing before us today. We are going to hear a range of 
perspectives to help inform our work, including PHMSA, the 
State of Ohio, pipeline operators, and safety advocates.
    We are also going to examine the findings of a recent GAO 
report which raises numerous serious concerns about the 
effectiveness of the Transportation Security Administration's 
Pipeline Cybersecurity Program. As the committee of 
jurisdiction for energy and interstate commerce--and let me say 
this very clearly--I am very disappointed that TSA refused to 
provide a witness for today's hearing, and I would urge this 
administration in the strongest terms possible to cooperate 
with our committee and respond to what I believe are legitimate 
oversight requests relating to pipeline safety and security.
    With that, Mr. Chairman, thanks again for holding the 
hearing, and I yield back the balance of my time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Thank you, Mr. Chairman for holding this hearing to begin 
our work to reauthorize and modernize the Nation's pipeline 
safety program. This is an important hearing, and I am pleased 
that we are beginning this process on a bipartisan basis, which 
is the tradition of the Energy and Commerce Committee on 
matters relating to pipeline safety and security.
    The Federal Government, acting through the Pipeline and 
Hazardous Materials Safety Administration, known as PHMSA has 
an important responsibility to develop and enforce regulations 
for the safe, reliable, and environmentally sound operation of 
the Nation's 2.7 million miles of pipelines. Pipelines are 
among the safest and most efficient ways to transport critical 
fuels and feedstocks such as natural gas and petroleum to our 
homes and businesses. Simply put, the safe operation of our 
Nation's pipeline system is essential to help keep prices low 
for consumers and drive our economy forward.
    PHMSA cannot do this important job by itself. It must 
coordinate effectively with other Federal agencies, such as 
DOE, FERC and TSA, and especially with States. In fact, it is 
important to recognize that much of the responsibility for 
pipeline safety falls on the States. It is often State pipeline 
safety workers who are on the front lines inspecting and 
enforcing safety requirements. In many cases, it is also the 
States' responsibility to regulate rates and ensure that 
adequate investments are made in pipeline maintenance and 
modernization.
    As Members of Congress, it is our responsibility to ensure 
that PHSMA and the States have enough resources and the 
appropriate tools to get the job done. With PHMSA's 
authorization expiring at the end of this fiscal year, it's 
time for us to get to work.
    As we turn to reauthorization, I will remain focused on 
protecting public safety and consumers. These are not mutually 
exclusive goals, and I am optimistic that we can find 
bipartisan agreement as we always have when it comes to 
pipeline safety.
    Mr. Chairman, I hope we can get a commitment to work 
together on the drafting process from the very beginning. That 
would be consistent with our practice from the last round of 
reauthorization, and I think it would contribute toward a 
better-quality work product.
    There are many areas where I believe we can update and 
strengthen the law to drive innovation and lower the barrier of 
entry for new technologies. New technologies for pipeline 
construction and integrity management can help improve 
efficiency and safety at the same time. I also believe we 
should examine recent pipeline safety incidents and incorporate 
lessons-learned.
    We should also make sure to provide PHMSA with clear 
directions, recognizing that they already have a backlog of 
Congressional mandates and they are working on two high 
priority rules for both gas and liquid pipelines.
    PHMSA must also finish its work on other important safety 
rules relating to pipeline valves and rupture detection, 
integrity management, class location, and public education and 
awareness.
    I believe PHMSA is on the right track, and I look forward 
to the agency completing this important work.At this point, I 
will close by thanking our witnesses for appearing before us 
today. We are going to hear a range of perspectives to help 
inform our work, including PHMSA, the State of Ohio, pipeline 
operators, and safety advocates.
    We are also going to examine the findings of a recent GAO 
report, which raises numerous, serious concerns about the 
effectiveness of the Transportation Security Administration's 
pipeline cyber security program.
    As the committee of jurisdiction for energy and interstate 
commerce, I am very disappointed that TSA refused to provide a 
witness for today's hearing. I would urge the administration--
in the strongest terms--to cooperate with our committee and 
respond to what I believe are legitimate oversight requests 
relating to pipeline safety and security.
    With that, Mr. Chairman, thank you for holding this 
hearing. I yield back the balance of my time.

    Mr. Rush. The Chair wants to thank the gentleman for his 
opening statement and reassure him that our side is eager to 
work with him on a bipartisan basis to address all of the 
issues which we are recently concerned about. I want to thank 
you.
    The Chair would like to remind Members that, pursuant to 
committee rules, all Members' written opening statements shall 
be made part of the record.
    And now, we will proceed to the witnesses' opening 
statements, beginning with panel one. I would now like to 
introduce our first panel of witnesses for today's hearing.
     The individual to my left is the distinguished Honorable 
Howard R. Elliott, Administrator for the Pipeline and Hazardous 
Materials Safety Administration, PHMSA. And next to Mr. Elliott 
is Mr. W. William Russell, the Acting Director of GAO. And next 
to him is Commissioner Lawrence Friedeman, the Public Utilities 
Commissioner for the great State, the Buckeye State, the State 
of Ohio.
    And I want to say that we thank all of our witnesses for 
being with us today, and we look forward to your testimony.
    Let me take a moment just to let you know that I will 
recognize you for 5 minutes to provide an opening statement. 
Before we begin, I would like to explain the lighting system 
that is before you. In front of you is a series of lights. The 
light will initially be green at the start of your opening 
statement. The light will turn yellow when you have 1 minute 
remaining. Please begin to wrap up your testimony at that 
point. The light will turn red when your time expires.
    And so, with that said, Mr. Elliott, welcome, and we 
recognize you for 5 minutes for the purposes of an opening 
statement.

STATEMENTS OF HOWARD ``SKIP'' ELLIOTT, ADMINISTRATOR, PIPELINE 
AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION; WILLIAM RUSSELL, 
  ACTING DIRECTOR, HOMELAND SECURITY AND JUSTICE, GOVERNMENT 
 ACCOUNTABILITY OFFICE; AND LAWRENCE FRIEDEMAN, COMMISSIONER, 
              PUBLIC UTILITIES COMMISSION OF OHIO

              STATEMENT OF HOWARD ``SKIP'' ELLIOTT

    Mr. Elliott. Thank you, Mr. Chairman.
    Ranking Member Walden, Chairman Rush, Ranking Member Upton, 
and esteemed members of this subcommittee, thank you for the 
opportunity to testify here today. I look forward to updating 
this subcommittee on the Pipeline and Hazardous Materials 
Safety Administration's progress in closing open congressional 
mandates and in executing our broader safety mission.
    Let me first say that I understand the frustrations that 
have been expressed regarding the outstanding congressional 
mandates on pipelines and hazardous materials safety. We are 
working hard to ensure our Nation's pipeline system remains 
safe and finalizing the mandates remains a top priority for 
PHMSA.
    Of the 11 remaining mandates from the 2011 and 2016 
Pipeline Safety Act--there were 61 in total--three are tied to 
reports and other actions, and the remaining eight are tied to 
in-progress rulemaking efforts. Those mandates from the 2011 
Act, the ones that have been opened the longest, are being 
addressed by three of PHMSA's current rulemakings for gas 
transmission pipelines, hazardous liquid pipes, and rupture 
detection in valves.
    PHMSA continues to make progress on these rules. The liquid 
pipeline safety rule moved out of DOT for final review several 
months ago. We have also completed our work on the gas 
transmission pipeline final rule and the valve and rupture 
detection rule. And these rules are both undergoing internal 
review at DOT.
    I understand that many of you and many of our stakeholders 
may feel like we are not moving fast enough on our rulemakings. 
As a safety practitioner, I appreciate and I fully share those 
comments. As PHMSA Administrator, it is my responsibility to 
prioritize and pursue those rulemakings that will provide the 
greatest safety impact and have the highest likelihood of 
preventing events that could negatively impact people and the 
environment.
    To that end, I refer the members of this subcommittee to my 
written testimony regarding details of two completed safety 
congressional mandates dealing with comprehensive oil spill 
response plans for railroads and the transport of lithium ion 
batteries by air. In addition, we issued a final rule to 
modernize technologies for plastic pipelines that we hope will 
further accelerate aging distribution gas line replacements, 
which is one of the greatest concerns we have at PHMSA. In 
addition to congressional mandates, many of PHMSA's rules must 
also address recommendations from the National Transportation 
Safety Board, the Government Accountability Office, and our own 
safety concerns.
    PHMSA is working to meet the needs of our expanding 
domestic energy production as well. In August of 2018, PHMSA 
established a new Memorandum of Understanding with the Federal 
Energy Regulatory Commission that eliminates unnecessary and 
duplicative regulatory reviews by both agencies.
    Going forward, PHMSA will operate as the Federal 
Government's LNG safety authority. To date, PHMSA has issued 
approximately letters of determination for new LNG facilities. 
PHMSA has also established a team of cross-agency experts that 
are updating the LNG facilities safety standards that date back 
to 1980.
    In addition, PHMSA continues to work to ensure that the 
agency has a full complement of field inspectors and 
headquarters staff to meet the demands of our safety mission. 
Safety is the highest priority for the U.S. Department of 
Transportation and for all of us at PHMSA. I am pleased to say 
that, while making progress on mandates, PHMSA's oversight role 
is to continuing to have a positive impact on safety. Our 
integrity management requirements have led pipeline operators 
to conduct over 90,000 repairs in high-consequence areas.
    Our field efforts are having an impact, too. Last year, 
PHMSA conducted over 12,000 days of inspections and 
investigations of pipeline systems. These field activities are 
helping to improve safety, as evidenced in the number of 
reported pipeline incidents which for 2018 was below the 5-year 
average, even with PHMSA's expanded regulatory oversight of 
underground natural gas storage facilities.
    Additionally, both pipeline-related fatalities and the net 
volume spilled from hazardous liquid pipelines was also below 
the 5-year average, down 33 percent and 20 percent, 
respectively, although we know that even one pipeline casualty 
is one too many.
    These facts, while notable, do not give me reason to pause 
during our ongoing safety mission at PHMSA. And even though we 
use statistics to help us measure improvements in safety, it is 
the vivid reminder in places like Bellingham, Marshall, San 
Bruno, Aliso Canyon, Merrimack Valley, and most recently, 
Durham, North Carolina, that serve as our motivation and 
commitment for working even harder to improve pipeline safety.
    Thank you again for inviting me to today's hearing, and I 
look forward to your questions. Thank you.
    [The prepared statement of Mr. Elliott follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
     
    Mr. Rush. I want to thank you, Administrator Elliott.
    And now, the committee will recognize Mr. Russell for 5 
minutes for purposes of an opening statement.

                  STATEMENT OF WILLIAM RUSSELL

    Mr. Russell. Good morning, Chairman Rush, Ranking Member 
Upton, Ranking Member Walden, and members of the subcommittee. 
Thank you for the opportunity to testify today about the state 
of pipeline safety and security in America and TSA's pipeline 
security program. My statement is based primarily on our recent 
December 2018 report.
    As you know, more than 2.7 million miles of pipelines 
transport oil, natural gas, and other hazardous liquids that we 
all depend on to heat homes, generate electricity, and 
manufacture products. Pipelines serve as the veins of our 
economy and run through both remote and highly populated urban 
areas. As a result, our pipeline network is a prime target for 
terrorists, foreign nations, and others with malicious intent 
to do physical and cyberattacks. A successful pipeline attack 
could have dire consequences on public health and safety as 
well as the U.S. economy.
    The Transportation Security Administration, TSA, is the 
lead agency to ensure the security of our pipeline network. And 
in our recent report, we found that TSA provided pipeline 
operators with voluntary guidelines to enhance the security of 
their facilities. Pipeline operators and industry associations 
also reported they effectively coordinate and exchange security 
information with TSA.
    That said, we identified a number of weaknesses in TSA's 
management of its pipeline security program, and I would like 
to highlight four key areas for improvement.
    First, pipeline security guidance itself. It is important 
for TSA to ensure that its security guidelines, which were 
updated in 2018, March of 2018, that they clearly define how to 
determine the criticality of a pipeline facility. As a result, 
pipeline operators may not be fully reporting all of their 
critical facilities, so that TSA can apply appropriate 
oversight and ensure that any vulnerabilities have been 
addressed.
    Second, workforce planning. TSA also needs to better 
evaluate the number of staff and resources that it devotes to 
pipeline security. For example, in our review we found the 
staffing was as low as one person in 2014 and has since 
increased to a total of six FTEs.
    Establishing a strategic workforce plan could help TSA 
ensure that it has identified the necessary skills, 
competencies, and staffing allocations that the Pipeline 
Security Branch needs to carry out its full responsibilities, 
including conducting necessary reviews of pipeline companies 
and facilities.
    Third, assessing risk. TSA uses throughput and risk to 
identify the top 100 most critical pipeline operators for 
review, but has not updated the assessment methodologies since 
2014 to account for changes in the threat environment. For 
example, threats to cybersecurity were not specifically 
accounted for, making it unclear if cybersecurity threats were 
considered.
    Last, effective monitoring. While we found that TSA does 
conduct pipeline operator and facilities security oversight 
reviews and makes recommendations to address issues found, it 
has not tracked and documented the implementation of those 
recommendations for over 5 years. Until TSA monitors and 
records the status of pipeline operator progress to implement 
needed changes, it will be hindered in its efforts to determine 
whether its reviews are, in fact, leading to a significant 
reduction in risk.
    We made a total of 10 recommendations to address these 
issues. I am happy to report that TSA agreed with all of them 
and has actions underway to address them, largely in this 
fiscal year.
    In conclusion, robust security of our pipeline system is 
vital to our economic interests and to mitigate the risks of a 
malicious attack. TSA has an important role in this process, 
and by implementing the changes, can more effectively carry out 
this mission.
    Chairman Rush, Ranking Member Upton, and Ranking Member 
Walden, this concludes my prepared remarks, and I look forward 
to any questions you may have.
    [The prepared statement of Mr. Russell follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Mr. Rush. I thank the witness for his opening statement.
    And now, the Chair recognizes Commissioner Friedeman for 5 
minutes for the purposes of an opening statement.

                STATEMENT OF LAWRENCE FRIEDEMAN

    Mr. Friedeman. Good morning. Chairman Rush, Chairman 
Pallone, Vice Chair McNerney, Republican Leader Upton, 
Republican Leader Walden, thank you. I appreciate the 
opportunity to be here this morning, as well as thanks to the 
other members of the subcommittee.
    My name is Larry Friedeman. I am a commissioner at the 
Public Utilities Commission of Ohio, known as the PUCO. Each 
day as I pass through the PUCO's lobby, I am reminded of our 
mission statement. And that is, to provide adequate, safe, 
fairly priced, and reliable utility services to the Ohio 
citizens. In short, we are to promote the general welfare by 
assuring the provision of essential services to all Ohioans.
    Implicit in the mandates is not only the need to establish 
service, but, just as importantly, to maintain the provision of 
safe utility services over time. Pipeline safety integrity is a 
foundational element of utility service upon which all Ohio 
citizens rely, and there is no higher consideration within the 
context of pipeline transmission and distribution than that of 
public safety.
    Ohio has a robust pipeline safety program dedicated to 
ensuring the safety and reliability of natural gas service to 
Ohioans. We have 113 natural gas pipeline operators and more 
than 71,000 miles of transmission, distribution, and gathering 
lines. Ohio is one of eight States that act as interstate 
agents for the Pipeline and Hazardous Materials Safety 
Administration, PHMSA, and has done so since 1973. We have 12 
interstate pipeline operators with over 8,500 miles of 
regulated interstate transmission lines.
    While these pipelines are located within the boundaries of 
the State of Ohio, the PUCO does not exercise jurisdiction over 
them. But, pursuant to an agency agreement with PHMSA, the PUCO 
inspects interstate natural gas pipeline systems based on an 
inspection plan agreed to with PHMSA. It investigates incidents 
and refers any rules of enforcement identified to PHMSA for 
disposition.
    Ohio also receives funding from PHMSA pursuant to the State 
Pipeline Safety Program Base Grant. This is a reimbursement-
based grant authorized to support up to 80 percent of a State's 
cost to administer a gas pipeline safety program. In order to 
qualify, each State's program must comply with PHMSA 
requirements.
    We are proud to say that for the last 2 years Ohio's 
program has received the maximum score available on those 
annual audits conducted by PHMSA. Yet, in 2018, notwithstanding 
the maximum score, Ohio received not 80 percent, but 72.16 
percent of expenses incurred.
    The Ohio program has 10 inspectors, performs over 150 
audits annually, and they are primarily focused on pipeline 
distribution facilities. Ohio has built and maintained its 
pipeline safety program in no small measure because of the 
assistance received pursuant to the PHMSA Pipeline Safety 
Program Base Grant. Through the years, the program has enabled 
the PUCO to hire, retain, and train properly its staff. The 
training occurs at a PHMSA training center in Oklahoma City, 
Oklahoma.
    Now, complementary to the PHMSA-related activities, the 
State of Ohio has undertaken some independent initiatives that 
I think worth mentioning. More than a decade ago, the PUCO, in 
cooperation with Ohio's major natural gas utilities, embarked 
on a capital investment program to replace bare steel and cast 
iron distribution pipes. The purpose of the program is replace 
the pipes with upgraded materials which not only enhance the 
structural integrity of the system, but prolong the useful life 
of the system. It is not only remedial, but preventative in 
nature.
    Since the inception of the program, Ohio's four largest 
investor-owned natural gas utilities have invested over $3.6 
billion in replacement and have replaced over 5,000 miles of 
distribution main line and more than 1 million service lines. 
The progress and value of the program is perhaps best 
manifested by the fact that, at the end of 2010, about 20 
percent of the total pipeline fell within categories targeted 
for replacement; at the end of 2018, that percentage has been 
reduced to 12. It is an inescapably long program in duration, 
but the PUCO has ordered accelerated cost recovery to 
incentivize accelerated replacement rather than authorizing 
recovery at more typical regulatory paradigm structures.
    In conclusion, I recount the Ohio State's specific 
activities. In addition to the PHMSA-related activities, to 
help demonstrate the sheer magnitude of the compelling 
importance and desirability of Federal-State cooperation and 
coordination, and enhancing the structural integrity of the 
natural gas transmission and distribution system, 
deliverability, reliability, and, most importantly, safety are 
wholly dependent on effective pipeline safety measures. I would 
strongly urge the subcommittee's continuing support for safety 
reauthorization. And more specifically, I would urge your 
consideration of increasing the total reimbursement to the full 
80 percent, as authorized by Congress.
    Thank you so very much for your time. I would be happy to 
answer any questions you have.
    [The prepared statement of Mr. Friedeman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Mr. Rush. The Chair thanks all the witnesses for their 
opening statements, and we have now concluded the opening 
statements.
    We will now move to Members' question. And each Member will 
have 5 minutes to ask questions of our witnesses. We will start 
by recognizing myself for 5 minutes.
    Administrator Elliott, there are quite a few issues that I 
would like to discuss with you, but, as I say, I only have 5 
minutes to do so. And therefore, I will send additional 
questions in writing to you regarding the timeline for when 
PHMSA expects to complete its congressionally mandated 
rulemaking. That letter, that transmittal will be coming to you 
soon.
    And I would also like to hear back from your agency on some 
of its workforce issues. Specifically, I would like to hear 
whether or not PHMSA does, indeed, have all the sufficient 
number of professional staff with the right expertise to handle 
all those responsibilities that fall under the agency's 
jurisdiction, including conducting timely pipeline inspections 
and finalizing its rulemaking.
    One timely matter that I would like to discuss with you at 
this time is the issue I spoke about in my opening statement. 
How do we get more funding and assistance to the State and 
local level in order to help emergency management agencies and 
first responders with the resources they need desperately to 
fully and effectively carry out their duties? Also, is there a 
defined obligation on the part of pipeline operators to work 
with county-level emergency managers to develop and maintain an 
emergency preparedness plan before an event or an exercise 
occurs?
    Mr. Elliott. Well, Mr. Chairman, thank you for those 
questions, and I will try to answer them in the order they were 
given.
    Let me first start by addressing, if you don't mind, the 
issue of mandates. I am the Administrator. I am responsible for 
ensuring that we work quickly to complete the mandates. I can't 
attest to actions by previous Administrators. I am the 
Administrator now; it is my responsibility. I understand that.
    But I think we have made good progress. The three rules 
that we have heard, going back to a Railroads, Pipelines, and 
HAZMAT Subcommittee meeting last June, really made it clear 
from both sides of the aisle that we need to move these 
mandates.
    As I indicated in my comments, I went back to the staff and 
I said, ``We need to do better than we are doing now.'' And I 
looked at the oil spill plan for railroads because that was 
close to being done and was a very, very important rule, as 
well as the prohibition of lithium batteries in passenger 
aircraft, which was another great concern.
    But the pipeline bills were equally important. We finished 
our work on the liquid pipeline rule. And again, as I had 
mentioned, that has been over at OMB now for about 50 days, and 
we are hoping to get a response back fairly soon.
    The two other rules that were of greatest concern, the gas 
transmission pipeline, we have completed our work there. It has 
been done for a while and it is going through the internal 
review process at DOT. We have been very responsive to 
questions that are coming back from the Office of the 
Secretary. So, we are being as responsive as we can to respond.
    The one bill that I think seems to have obtained the most, 
and probably rightfully so, the most focus is the rupture and 
automatic valve rule. And that wasn't in a final rule stage. 
That one was in a Notice of Proposed Rulemaking. So that one, 
agreeably, has languished the most. Our team has finished the 
writing of that Notice of Proposed Rulemaking. That, too, is 
also being reviewed by the Secretary's Office.
    So, all three of those we really hope to see two final 
rules completed and a Notice of Proposed Rulemaking moving 
forward. We have several other mandates behind that that we are 
working equally hard on.
    To address the question about staffing, we have 581 
employees at PHMSA. About 310 are assigned to the pipeline 
side. I have mentioned before it is tough for us to compete 
with industry to hire good, qualified, as you said, pipeline 
engineers.
    Interesting, I was in Atlanta yesterday, and my Director of 
Human Resources was over at Virginia Tech trying to figure out 
how we can create a better recruiting bed at colleges and 
universities that put out good engineers. I think part of the 
problem is we need to make people more aware of the important 
safety mission of PHMSA, because I think once they understand 
that, we are going to be more attractive to be in a place to 
hire. But, right now, we have done a great job in filling the 
gaps, the voids that we had in our hiring, and it has given me 
a better position to see how effective are we with the current 
staff.
    I especially appreciate your comments about emergency 
responders. In my 40 years in the railroad, I was responsible 
for emergency response. And during that time, I lived in New 
Jersey and was actually the part-time emergency management 
coordinator for the town that I lived in in south Jersey. So, I 
fully appreciate the fact that we need to do more to help 
emergency responders. And you are absolutely correct, it is a 
responsibility of the oil and gas industry to make sure that 
they work with emergency responders, especially on drills and 
exercises.
    Mr. Rush. I want to thank you. And I want to just remind 
you that we will be submitting additional questions for the 
record.
    The Chair now recognizes Mr. Upton for 5 minutes for the 
purposes of asking questions.
    Mr. Upton. Well, thank you, Mr. Chairman.
    And again, I want to appreciate the testimony that you all 
provided us today. I know that we have a good number of 
questions.
    I particularly want to thank Mr. Elliott, the 
Administrator, for his personal review of the Nation's 
pipelines. I know you have been to Michigan a number of times. 
You have met with Republicans and Democrats, as we all care 
about these issues. And I just really appreciate your hands-on 
experience and your willingness to come and help us here.
    It is been clear for a long time that pipelines are really 
the safest way to transport oil and gas as it relates to 
incidents. But, of course, as you said in your testimony, it 
just takes one bad issue to really blow up and make a mess, a 
big mess of things in a major way.
    As you heard in my opening statement, yes, we are 
disappointed that TSA is not here. And I guess some could 
suggest that TSA has really increased by sixfold their 
inspectors, because it has gone from one to what I thought was 
six, but I am now told that it is now less than a handful; it 
is actually four. Is that correct?
    Mr. Russell. That is correct.
    Mr. Upton. So, there I was giving them the benefit of the 
doubt that it was a handful plus one, but it is actually less 
than a handful of folks around the country, which I don't think 
is a very good trend.
    This committee has worked a long time on cyber protections. 
God help us if somebody gets into one of these systems and does 
something bad, that would really pose a problem. We are all 
aware of public events the FBI and others have talked about. 
But I guess I want to refer this to Mr. Russell, as the GAO.
    In your report, what type of emphasis has TSA, knowing that 
they have these massive resources to look at the potential for 
a cyberattack on any of our pipelines, what have they done to 
address that, knowing that, in fact, there are published 
incidents of collusion? Let me put it that way. State-
sponsored.
    Mr. Russell. That is correct. So, as DNI Coats recently 
acknowledged in the last intelligence assessment, you have 
nation states with the full capability to do harm to our 
pipeline network. And as you mentioned, with TSA's resources, 
it was six when we concluded our report in December. So, if it 
is down to four, that is, as you mentioned, less than a 
handful.
    And one of the concerns that we found in our review was the 
pipeline security officials did not necessarily have the 
requisite expertise and skills when it came to cybersecurity. 
And that is one of the things that we recommended that TSA try 
to account for when it does its workforce plan, as part of one 
of our recommendations.
    Mr. Upton. On page 6 of the GAO report, it says, and I will 
quote this to you, ``Our analysis of TSA's data found that at 
least 34 of the top 100 critical pipeline systems TSA deemed 
highest risk indicated that they had no critical facilities.'' 
Can you dive a little deeper into that? What are they missing? 
Where should they be?
    Mr. Russell. Sure. So, the way it works now is it is a 
voluntary process. So, the pipeline operators----
    Mr. Upton. Should it be mandatory?
    Mr. Russell. One of the first steps, I think, and where we 
went with the recommendation, was for TSA to clarify their 
guidelines first, to make it more clear what is the definition 
of a critical facility. And that is what we found, is that 
there is some confusion around that, such that a full third of 
the top 100 most critical pipeline operators had not identified 
any critical facilities, which, then, affects which reviews 
that you do.
    Mr. Upton. I am sorry to interrupt, but what wouldn't be 
critical? I mean, we had this Kalamazoo Enbridge line that went 
in the Kalamazoo River. It was a billion dollars for Enbridge 
to clean that up. They didn't report it for what turned out to 
be a couple of days, and it was a pretty major--in Michigan, 
so, you know, it crosses your hand here. But a billion dollars, 
just a small--I mean, what is not critical that they would look 
at?
    Mr. Russell. Well, these are self-reported, so it is up to 
each of the pipeline operators to self-identify what is their 
critical facility. And that brings it around, I think, to one 
of the other points in the opening statement, around the 
recommendation followup. So, as TSA does their corporate 
security reviews, they may ask questions of the pipeline 
operators, hey, it looks like you may have a critical facility 
here. That may even be a recommendation. But if they don't go 
back to follow up to see if it is implemented, then you are 
continuing to have that risk.
    Mr. Upton. Knowing that my time is expired, let me just 
make a quick comment, not a question. And that is, for that 
particular pipeline, good news, it was completely replaced, 
replaced at the new standards that this committee pushed 
through. I want to say it was about $4.5 million per mile as it 
crossed the State. But we took care of it the right way.
    Thank you very much for your testimony.
    Mr. Russell. Sure.
    Mr. Upton. I yield back.
    Mr. Rush. The Chair now recognizes Mr. Peters from the 
great State of California for 5 minutes.
    Mr. Peters. Thank you, Mr. Chairman. Thank you for having 
this hearing today.
    I had a couple of questions, maybe to follow up on the 
issue of resource constraints. I heard requests over the years 
for the increased use of technology to expedite gas pipeline 
inspections and safety monitoring. It might be a little bit of 
a double-edged sword with respect to cyber, but I will get to 
that with Mr. Russell.
    But, Mr. Elliott, are there technologies that you think 
need to be incorporated so that industry and regulators can 
better evaluate pipeline safety, particularly given the 
resource restraints we see at TSA?
    Mr. Elliott. Congressman, thank you for the question. The 
short answer is yes. If I can elaborate, I will tell you that 
in my year and a half as the Administrator of PHMSA, but backed 
by many years in the rail industry, where we saw technology 
move in leaps and bounds, I have seen the same thing in the use 
of technology to help quickly expand the capabilities of in-
line pipeline inspection technology.
    One concern that I have with that is, even as good as it 
is, it is still not perfect. And much of the in-line inspection 
tools that are in place today--and again, the level of 
sophistication is amazing--really focus on three purposes. One 
is to extend the usable life of the infrastructure. The second 
actually is to help reduce the amount of actual physical 
inspections that have to be done, thereby reducing cost. And 
the third is an absolute tangible improvement in safety.
    At PHMSA, we focus on trying to encourage the research and 
development both with the dollars that we have that go into R&D 
and what we encourage industry to do, to really focus, first 
and foremost, on the absolute safety value there. One of the 
criticisms we get is PHMSA's inability to move quickly to get 
out of the way of industry to implement this new safety 
technology. And I would agree with that. I think our special 
permitting process is a bit slow. Part of the language that we 
are trying to look at in reauthorization will help speed that 
up. But I do think that technology will continue to expand at a 
rapid pace and will continue to improve pipeline safety.
    Mr. Peters. And you think that is something that is being 
taken care of by industry? Or do you think that Congress needs 
to take action?
    Mr. Elliott. Congressman, I do believe that is something 
that industry is taking care of themselves, because it benefits 
the ability to, as I have mentioned, to extend the life of the 
infrastructure and help reduce inspection cost. I will tell you 
that, as PHMSA, we spend our R&D dollars more on what we 
consider to be step-change R&D, maybe not the safe R&D. For 
example, one of the R&D efforts that recently has been 
successful in dollars that we put is the ability to locate 
plastic pipe. Distribution lines are going more to plastic 
pipes. You can't use the same technology to locate the pipes. 
So, we would like to see more industry dollars go to some of 
that more step-change safety that is not really being focused 
on as much.
    Mr. Peters. I didn't hear you mention, explicitly mention, 
leak detection as one of the purposes, the objects of the 
technology, but I assume that would be covered as well?
    Mr. Elliott. Yes, I do think--and again, in my time I have 
been relatively impressed, at least in the leak detection 
capabilities that exist in control rooms. But probably more to 
your point, there is more that I think that can be done to 
identify smaller, some of those imperceptible leaks which tend 
to plague the industry. I think the larger releases, the 
systems seem to do a very good job. But you are probably 
correct, both with the in-line inspection capabilities that 
might identify issues before they ever turn into a leak--all of 
that I think with time will continue to reduce the likelihood 
of both large-scale leaks and small leaks.
    Mr. Peters. OK. Thank you.
    Mr. Russell, in terms of lethality and cost of recovery, 
are pipelines in America more at risk from a cyberattack or a 
physical attack?
    Mr. Russell. I think there are definitely physical security 
concerns, as we have seen with environmental groups and others 
that cause damage. But the cyber threat is one that is ever 
emerging and ever evolving. And I think that is one where we 
thought there is more that could be done.
    Mr. Peters. Let me ask you this, because I have a minute 
left.
    Mr. Russell. Yes.
    Mr. Peters. As industry continues to deploy technology, how 
should the Government make sure that, from a cyber perspective, 
our citizens are protected? Because, I mean, technology is the 
point where bad actors tend to try to make those inroads. What 
do you think is the role for the Government, either 
administrative or the Congress, to make sure that we protect 
our citizens from a cyberattack?
    Mr. Russell. Sure. I think it boils down to robust 
oversight. So, do pipeline operators understand what their 
operating systems are, their control systems----
    Mr. Peters. Right.
    Mr. Russell [continuing]. Data systems, the industrial 
control systems that would be the point of attack? And have you 
adequately protected those? Anything that Government can do to 
put out a framework--so, for example----
    Mr. Peters. I have got 4 seconds left. So, I appreciate the 
answer. I would say let's continue to work on that together. 
Thank you for showing up. And when you say ``oversight,'' and 
we have the TSA not showing up, obviously, that frustrates the 
purpose, the ability of us to do oversight. So, I just note 
that for the record as well.
    And I yield back.
    Mr. Rush. The Chair now recognizes the gentleman from Ohio, 
Mr. Latta, for 5 minutes.
    Mr. Latta. Thanks, Mr. Chairman, and thanks very much for 
holding today's hearing. It is very, very important that we 
have this hearing.
    And I want to thank our panelists for being with us today.
    I would also like to, again, welcome Commissioner Friedeman 
for being with us today. He comes from northwest Ohio, not too 
far from where I am from. And so, we appreciate you being here, 
making the effort.
    If I could start my question with you, if I may, 
Commissioner Friedeman, as you mentioned in your testimony, 
Ohio is only one of eight States that acts as an interstate 
agent for PHMSA, which comes with considerable additional 
responsibility. Will you inform the subcommittee about Ohio's 
working relationship with PHMSA?
    Mr. Friedeman. Yes. Thank you for the question, 
Representative Latta.
    I think if you were to ask the commission staff 
anecdotally, they would characterize the relationship as 
professional, mutually respectful, cooperative, as well as 
productive. I mean, there is an acknowledgment of a shared 
accountability, I believe, in terms of the interstate pipeline 
and the assumption of responsibilities associated with the 
inspection. It enables the commission staff, frankly, to 
leverage in terms of funding in a way, again, to train, 
retrain, and retain good, qualified individuals, which then 
serves to benefit Ohio, and exemplary in terms of the 
compelling need to address these same situations nationally. 
So, it is a very positive relationship.
    Mr. Latta. Thank you very much.
    Administrator Elliott, what could Congress do to help drive 
innovation and foster an environment where operators can 
incorporate new technologies and best practices?
    Mr. Elliott. Congressman, thank you for the question.
    I think perhaps the best way is just continued support, and 
perhaps even a greater thirst for understanding how the oil and 
gas pipeline industry applies technology and innovation. Again, 
as I had mentioned earlier, it is a fairly constant drumbeat 
for us at PHMSA to encourage the pace at which that gets put 
into place. But I do believe that the more that people 
understand what is in place, and what more can be done, there 
might be some additional encouragements that can be brought to 
bear.
    Mr. Latta. Let me followup. Would more data and information 
demonstrating the capabilities of new technologies operating in 
real-world situations be helpful to PHMSA as it pursues updates 
to inspection and maintenance/repair critical in these 
regulations?
    Mr. Elliott. Yes, I think we have a large thirst for good, 
reliable data. We maintain a lot of that already, but I think, 
Congressman, the only way we are going to continue to get 
better is to continue to seek information/data that is going to 
allow us to continue to improve our safety mission.
    Mr. Latta. Thank you.
    Commissioner Friedeman, I understand that Ohio has a good, 
accelerated pipeline replacement program. Would you talk a 
little bit about the commission's role to ensure that pipeline 
rates are adequate to allow for pipeline replacement and 
modernization?
    Mr. Friedeman. Yes, sir. Thanks again for the question.
    The commission needs to remain cognizant of the fact that 
the costs associated with the capital investment concomitant to 
the implementation of the program are essentially allocated 
socially across rate base. So, as I alluded to in my opening 
statement, there is a means by which we, the commission, not 
only incentivized accelerated replacement, but accelerated 
recovery. Now associated with that accelerated recovery is an 
annual audit where the commission could revisit the expenses 
and the prudence, and the various criteria by which we can 
appropriately balance the costs associated with the investment 
against the benefits derived from the investment.
    Mr. Latta. Thank you.
    Mr. Russell, if I could go to your testimony when you 
found--you said, on page 5, ``We found that TSA's Pipeline 
Security Branch had issued revised Pipeline Security Guidelines 
back in March of 2018, but TSA had not established a documented 
process to ensure that revisions occur and fully capture 
updates to supporting standards''. But you go down, you get 
right into ``reflect the dynamic threat environment and to 
incorporate cybersecurity principles''.
    I am concerned because in this subcommittee and this full 
committee we hear a lot about the attacks that occur out there. 
And how much is TSA taking these threats on the cyberattacks 
that are occurring on the pipelines out there to make sure that 
these guidelines get in place?
    Mr. Russell. Right. So, they were able to update them in 
March 2018, as you mentioned. Part of that update was to 
include more guidance for the pipeline operators on 
cybersecurity issues. Why we think it is very timely and needed 
for them to have a process to continue to update that is, about 
a month after the guidelines came out, there was a new set of 
an updated framework from NIST that included some additional 
provisions around supply chain risks and some other things that 
are important to also incorporate. So, our concern is that we 
want TSA to have a process, so you don't wait another 6 or 7 
years to, then, incorporate those standards into the Security 
Guidelines.
    Mr. Latta. Thank you very much.
    Mr. Chairman, my time is expired and I yield back.
    Mr. Rush. The Chair thanks the gentleman.
    The Chair recognizes the chairman of the full committee, 
Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    Obviously, we are beginning the process of developing 
legislation to reauthorize the Pipeline Safety Act. And first, 
we have to understand the current state of affairs and what 
work remains incomplete from previous reauthorizations. But, 
unfortunately, as I noted in my opening statement, numerous 
congressional mandates from the 2011 and 2016 reauthorizations 
have not been finalized by PHMSA.
    So, I wanted to start with Administrator Elliott. I would 
like to ask you for updates on some of these outstanding 
mandates. First, what is the status of the rulemaking on 
emergency order authority that was included in the 2016 Pipes 
Act?
    Mr. Elliott. Mr. Chairman, thank you for the question. As 
you may recall, we submitted an Interim Final Rule for the 
emergency order authority, which we believe gives us the 
intended authority that Congress was looking for. We have 
since, after further public review and comment, have made some 
modifications to that specifically about the timelines that 
industry may have to do an appeal to that process. We have 
completed our final rule language, and it is currently over at 
OMB.
    Mr. Pallone. OK. Now what is the status of the rulemaking 
mandated in the 2011 Act to expand integrity management beyond 
high-consequence areas?
    Mr. Elliott. Well, really, that falls into two rules that 
we are working on, the liquid safety rule, which I had 
mentioned in my comment there are some integrity management 
aspects there. We have finished our work there, and that also 
is at OMB.
    The other component is in the gas transmission rule. When I 
first came to PHMSA about a year and a half ago, that gas 
transmission rule was affectionately referred to as the ``mega 
rule''. It had gotten so big, I don't know how it could have 
ever moved. So, we split it into three parts, the mandate 
section, another section of the bill that deals with integrity 
management, some damage prevention, and the third part is 
gathering lines. We have completed our work on the mandate 
section, and we are actively working on the second section of 
that that deals with some additional integrity management work.
    Mr. Pallone. And then, lastly, what is the status of the 
rulemaking mandated in the 2016 Act to regulate underground 
natural gas storage facilities?
    Mr. Elliott. Right. We have completed our work with that, 
and that is also being reviewed by the Office of the Secretary.
    Mr. Pallone. Now I know, Administrator Elliott, that you 
inherited many of these delayed mandates, but the fact remains 
that your agency is behind schedule, obviously. So, we hope we 
will begin to see major progress this year.
    And I wanted to shift briefly to Bill Russell from GAO. 
Your December 2018 report highlighted troubling weaknesses in 
the Transportation Security Administration's pipeline security 
program. And in your report, you found that the TSA Pipeline 
Security Branch had not calculated relative risk among the top 
100 critical pipeline systems using its risk-ranking tool since 
2014, and that the risk-ranking tool did not include current 
data. So, my question is, can you please elaborate on these 
findings and how GAO's recommendations address the shortfalls 
you identified in TSA's risk-ranking tool?
    Mr. Russell. Right. So, the risk-ranking tool is critical 
because that really shapes which companies, which pipeline 
operators TSA is going to review with the limited resources 
that they have. So, what we saw is some shortcomings in how 
they thought about the threats that were encountered. 
Obviously, from 2014 to now, there have been evolving threats. 
One of the questions we had was the extent to which some of the 
cybersecurity issues had been factored into that initial risk 
assessment. Another one had to do with just the safety of the 
pipeline system. So, for example, a pipeline network may be 
more vulnerable if, for example, PHMSA has identified some age 
and safety issues. Was that factored into the risk ranking in 
order to prioritize reviews? So, we had four different 
recommendations to try to get at some of these issues.
    Mr. Pallone. I mean, you know I am very concerned, 
obviously, as many of us are here, that TSA is working with 
outdated information, which can have dire consequences for a 
program focused on the security of the country's pipeline 
network. And again, it is unacceptable that TSA refused to 
testify at this hearing or explain how it is responding and 
reacting to the troubling findings in GAO's report. But I 
certainly appreciate what GAO is doing and your ongoing efforts 
to do oversight of this.
    So, thank you, Mr. Chairman.
    Mr. Rush. The Chair now recognizes Mr. McKinley, my friend 
from West Virginia, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    I will go back, the title of this hearing says it is the 
``State of Pipeline Safety and Security in America''. The state 
of pipeline safety and security in America. So, I am just 
curious, if we look back--I have got a chart here that says 
that, in the last 10 years, we are now transporting nearly 40 
percent more material through our pipelines, gas and fuel oil, 
and whatever, a 40 percent increase on that.
    Also, we have seen that, since 1999 to today, last year, 
the number of incidents have not varied much. I guess back to 
an earlier comment, someone said, if there is just one, it is a 
problem. And I don't think anyone would disagree with that. But 
I think the reality is, when you are transporting 614 million 
cubic feet of material, that there is a chance, just like in an 
airplane, with 737 Max and others, there is going to be a 
chance of something going wrong. But, over nearly 20 years, we 
virtually had no increase in incidents. We were 275; we dropped 
to 233, 258, 264, 278, 303. There were 286 last year. So, it is 
essentially the same, and we are transporting tremendously 
increase in product.
    So, I am curious on this. How would you grade, Mr. Elliott, 
how would you grade your performance? Is it the fact that there 
are any, this is a ``C'' or a ``D''? Or how would you give it a 
grade in overall safety and security of America with our 
pipeline system?
    Mr. Elliott. Congressman, thank you for that very important 
question. Before I assign a grade, I will tell you we can never 
ever do enough. We will constantly strive every day, at least 
while I am in the Administrator's chair, to improve the safety, 
not only of pipeline safety. And a lot of people forget we also 
have the responsibility of surface transportation safety, which 
is 1.2 million shipments of hazardous materials a day, in 
addition to the 2.7 million miles of pipeline that we have.
    But if I were to give a grade, I would give us a ``C,'' 
because I think we are doing well, but we are never doing good 
enough. I think some of the comments that we had earlier, I do 
think that we will continue to see great advancements in safety 
through technology, innovation, research and development. But, 
from my perspective, I think it is going to be constantly 
working with the highly professional team at PHMSA to make sure 
that each and every day that we are out working with operators 
and members of the public to make the transportation of energy 
products by pipeline as practical and safe as possible.
    Mr. McKinley. Thank you.
    Mr. Russell, how would you grade it? Because you have got 
an outside view of it. Given the increased traffic, virtually 
no increase in number of incidents, but there are incidents. 
And as I said before, I don't like that, either. But how would 
you grade it?
    Mr. Russell. I think, overall, based on our most recent 
report, it is clearly needs improvement, whether it is taking 
care of some elements in the Pipeline Security Guidelines that 
the pipeline operators rely on to help manage their processes, 
being a little bit more diligent on just following up on the 
common-sense recommendations that the pipeline security folks 
at TSA make to those operators.
     Mr. McKinley. Well, if I could, let me follow up with that 
a little bit.
    Mr. Russell. Sure.
    Mr. McKinley. Because I interpret what you are saying is 
maybe more regulations. So, I am curious, because I have got 
the Atlantic Coast Pipeline. I think we have heard about that. 
There are 67 permits that had to be granted, 67, for FERC, FAA, 
the Federal Communications Director, and NOAA, the National 
Park Service, the Corps of Engineers in Huntington, Pittsburgh, 
Norfolk, Wilmington. I could go on and on. Sixty-seven 
different permits to be able to--do you think the increased 
regulations--I am not talking about doing away with any of 
them--but increasing the number of regulations, is that going 
to give us more safety and security of our pipeline?
    Mr. Russell. Well, I will say, for the TSA role, there 
isn't a regulation. It is a voluntary-based system. So, I think 
our point is just making sure that that process works as 
effectively as possible, in the absence of a regulation.
    Mr. McKinley. I will think about that a little bit. Thank 
you.
    And I yield back.
    Mr. Russell. Sure.
    Mr. Rush. The Chair now recognizes Mr. Doyle for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman, and thank you for 
holding this hearing today.
    This conversation is particularly important to my district 
of Pittsburgh. Pennsylvania's energy mix has rapidly 
transformed in recent years due to the Marcellus Shale. And as 
a result of the natural gas boom, Pennsylvania is experiencing 
a buildout of infrastructure from pipelines to the Shell 
cracker plant in Beaver County, just outside my district. This 
can be a great resource, but only if we ensure that the 
pipelines meet stringent safety and environmental standards, so 
that we are protecting the health and safety of the people of 
Pittsburgh as well as the country.
    Mr. Elliott, Carnegie Mellon University in my district is a 
world-class center for robotics, which can play a vital role 
for monitoring the safety and security of pipelines and 
protecting the environment. How does PHMSA take into account 
new and emerging technology, and how do you ensure the 
performance standards reflect the most effective technology 
available?
    Mr. Elliott. Well, Congressman, thank you, and I 
appreciated visiting the gas transmission work going on in your 
district last week.
    As I mentioned, PHMSA provides R&D dollars to help ensure 
that we are staying current with the most cutting-edge. One of 
the ways that we do that is on a biennial basis--and we are 
actually thinking now to do it more often--we hold an R&D forum 
where we allow colleges and universities, and others that are 
involved in pipeline research and development, to come in, and 
we kind of spell out what we are looking for, where we think we 
need to see research and development progress in the pipeline, 
especially the pipeline safety area. And then, from that forum, 
we receive applications for R&D, some of it actually including 
robotics that you mentioned about. And then, based on the best 
applications, we will provide the funds that we have to pursue 
that R&D. I wish we could do more, but we do the best we can.
    Mr. Doyle. Let me ask you, several pipelines are under 
construction in Pennsylvania right now. Late last year, it was 
reported that energy transfer in Sunoco had amassed more than 
800 State and Federal permit violations while building two 
pipelines, the Rover and Mariner East 2, across Pennsylvania 
and Ohio. I have concerns that the two pipelines, despite being 
under construction, have polluted waterways with gallons of 
drilling fluid and created sinkholes in backyards. Can you 
please describe some of these violations?
    Mr. Elliott. Well, Congressman, thank you for the question, 
and we continue to work very closely with our State partners in 
Pennsylvania that have been doing most of the oversight there. 
And I will tell you, yes, I think we have at PHMSA a concern, 
based on our dialog with the State pipeline office, about 
perhaps a lack of professional construction methods that are 
being used. So, I think we wholly support the actions that are 
being taken at the State level to enforce perhaps a more rigid 
construction standard.
    The work that I did for many years in the railroad 
industry--and Pennsylvania was one of the big States that we 
worked in--I also oversaw all of the environmental aspects of 
the railroad. And I will tell you that I have a great concern 
anytime there is any kind of impact to the environment, whether 
or not it is hazardous substance or whether or not it is 
material that basically is a byproduct of directional boring, 
which was some of the case we had here.
    Mr. Doyle. Right.
    Mr. Elliott. So, I agree with the aggressiveness that the 
State oversight is providing here.
    Mr. Doyle. Studies have shown, since 2010, at least two 
critical detection systems designed to help operators avoid 
costly accidents only were detecting right away spills roughly 
12 percent of the time. In fact, random observations from the 
public were nearly four times more effective in detecting 
leaks. Given that PHMSA studies have shown that industry leak 
detection can be unreliable, what is PHMSA doing to incorporate 
modern leak detection standards into its rulemaking, and when 
can we expect action on that?
    Mr. Elliott. Well, Congressman, again, thank you for the 
question. And we have incorporated some additional leak 
detection language within both our liquid and gas rulemakings. 
But I will also say that it is our intent, I think, to continue 
to see progression in the technology and the actions by the 
operators that will identify the potential for any kind of 
small leak. The larger leaks, typically, are the ones that the 
industry will quickly identify through their control rooms. It 
is those small leaks that propagate and may go unnoticed for 
many days. I think that is where technology is going to be most 
useful, to find areas of likely release and get in and correct 
that long before it can ever harm the environment.
    Mr. Doyle. Thank you.
    Mr. Chairman, thank you. I yield back.
    Mr. Rush. I want to thank the gentleman for yielding back.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman.
    I am going to pick up with Mr. Doyle's questions. But, 
first, I want to thank you for mentioning Virginia Tech, which 
is in my district, and I hope that you all were successful in 
finding some folks there who are willing to work for you. There 
are a lot of good people. So, I know that it was a worthwhile 
trip.
    Mr. Doyle was already picking up on it, and there are a lot 
of new technologies coming out. One that I have looked at that 
I think has some real potential is fiberoptic, you know, 
placing that out there to track leaks.
    We have a couple of pipelines coming through Virginia, one 
of which comes through my district and comes very close to 
Virginia Tech. And a lot of people are concerned about the 
safety, and the small leaks, as you said, are where the new 
technologies can go. But what is PHMSA doing to remove any 
regulatory barriers--and let me know if you think there are 
some--and incentivize the adoption of new technologies? Because 
we have got this big gas pipeline coming through, and it 
appears to me that FERC is not requiring that they use some of 
these new technologies to make sure that these facilities are 
completely safe. And even if it is just a small gas leak, what 
is small today, as you know, can be big tomorrow and can cause 
a problem not only to the environment, but to the people who 
live near that pipeline.
    Mr. Elliott. Congressman, thank you for the question. I 
think one of the items that I have been most impressed with is 
we have seen advancements in technology. And I do believe that, 
as we see new construction and complete replacement of 
pipelines, I do think that you are going to see--and some is 
available today and some will continue to be available--that 
the pipeline installation process will include systems that 
will self-report the health of the pipeline above and beyond 
what happens today with in-line inspection technology.
    So, I think the combination of several things, continuing 
use of integrity management systems by the operators, the 
continued expansion of technology and in-line inspection 
technology, and then, the continued use of self-diagnostic 
capabilities with new and totally replaced pipeline. I do think 
that in the not-too-distant future we will probably see new 
constructed pipeline that will be able to self-report on a 
regular basis its real-time health.
    Mr. Griffith. So, here is my concern and the concern my 
constituents have. And I know they were trying to sell product, 
but some folks came in with their fiber optics and they were 
able to show how they can detect based on the temperature 
change. If you just lay that fiberoptic on top of the pipeline, 
you can tell if there is a small leak. You can also tell if 
somebody is trying to do physical harm to the pipeline, for 
whatever reasons, because they in real time can see if somebody 
is driving up or walking up to the pipeline, if somebody starts 
digging near the pipeline. They can see all of that.
    And yet, the pipe is not in the ground yet. The technology 
appears to be ready. And FERC doesn't seem to be requiring it. 
Do you all work with FERC to say, hey, this is new technology? 
It is not that expensive, and when you are talking about a 
pipeline that is going to be in the ground for decades and near 
a lot of communities, I think people would sleep a lot better 
in my district if they knew that that was there. And it is not. 
There is no plan for it. The pipe is not in the ground yet in a 
large part of my district. What can we do to encourage the 
operators to do that? And what can you all do to work with FERC 
to say, hey, this is something that really ought to be done?
    Mr. Elliott. Well, we will continue to have dialog with 
FERC on a regular basis, and we will discuss that. But I think 
one of the other things that we can do in the regular dialog 
that we have with the oil and gas operators is to continue to 
push the use of new technologies that will minimize leaks and 
releases of pipelines. We can have that conversation with them.
    Mr. Griffith. I certainly hope that you will. And there are 
some new people in FERC. So, I don't want to say that they are 
all like this, but I will tell you, at one point a few years 
back, we had three Congressmen from our region who asked for 
additional hearings and we got nothing. And that is very 
discouraging. It doesn't seem like they are very open to input. 
I hope you have a different experience.
    That being said, I have got a few more seconds. What is 
your favorite new technology on pipeline safety? You have got 
to have one that you are just like, hey, that is pretty neat.
    Mr. Elliott. To me, I actually think it is the ability to 
locate nonmetallic pipeline that is becoming so prevalent in 
natural gas distribution systems in major metropolitan areas, 
because I think that has the greatest opportunity to create 
safety. I know in the incident that occurred in Durham, North 
Carolina, where a directional boring machine tapped into a 
distribution line--I just think that the ability to be able to 
more accurately identify nonmetallic pipeline is probably my 
thing.
    Mr. Griffith. I appreciate that. Thank you.
    And I yield back.
    Mr. Rush. The Chair now recognizes Mr. McNerney from 
California for 5 minutes.
    Mr. McNerney. Well, I thank the chairman for that.
    And I thank the witnesses this morning.
    Administrator Elliott, on September 9th of 2010, I was on 
the San Mateo Bridge when the San Bruno explosion occurred. Two 
of my three children live in peninsula just south of San 
Francisco. Also, the Aliso Canyon leak, which was incredibly 
dangerous, and we were very lucky that there were no explosions 
with that, occurred in California. Near my district we have 
three large natural gas storage facilities, including the 
MacDonald Island, which is 82 billion cubic feet.
    So, are the inspections by the California Public Utility 
Commission and the Federal authorities for these facilities, 
and the high-pressure transmission pipelines, doing enough to 
keep our communities safe? Are they doing enough?
    Mr. Elliott. Congressman, I do believe that the work being 
performed is adequate. I, first, want to say, when I first came 
to PHMSA, it was the discussion of San Bruno and the eight 
fatalities that occurred there, and that Aliso Canyon was the 
worst natural gas release we have ever had in this country. So, 
those resonate very much.
    We are so dependent upon the use of our State partners to 
oversee certain operations. And 80 percent of the pipeline 
system in the U.S. today falls to the oversight of our State 
partners. I think, as I said earlier, there is always more we 
can do. We always need to strive to get better. We need to work 
more closely with our State partners to make sure that we are 
being as forward-thinking as possible. But I would have to say 
that, at this point in time, I do think the work is adequate.
    Mr. McNerney. Well, we clearly have our complaints about 
the pace of PHMSA's rulemaking, but are we being too demanding 
about the safety of our constituents? Is that part of the 
problem?
    Mr. Elliott. No, I mean, you can never not take into 
account the absolute importance of the safety of your 
constituents. And as I had mentioned earlier, we have every 
reason to continue to focus on improving and completing those 
mandates, so the safety value of those rules can get out and be 
in place.
    Mr. McNerney. What is the holdup in these rulemakings? I 
mean, is industry dragging its feet or you don't have enough 
personnel? Do you need more resources from Congress? I mean, 
what is the holdup here?
    Mr. Elliott. As I had mentioned before, I understand it is 
my responsibility, as the Administrator today, to complete 
these mandates, going back to 2011 and 2016, and we work on 
that every day. For most of the mandates that have been brought 
to our attention as being most important, the liquid, the gas, 
the rupture detection valve rule, we have completed our work on 
those, and they are going through the necessary review before 
they can be published as a final rule, except for the rupture 
and automatic valve rule, which is a Notice of Proposed 
Rulemaking. So, granted, we have got a ways to go on that, but 
it has got the greatest attention at PHMSA, sir.
    Mr. McNerney. Thank you.
    Mr. Russell, I have introduced some good cybersecurity 
bills in Congress and in a number of others in previous 
Congresses. Your example of the TSA's criteria for determining 
pipeline facility criticality as a potential for mass 
casualties or significant health effects, it is very concerning 
that the pipeline operators interpret this differently. What 
more can the TSA do to provide more clarity to operators of 
whether the facilities qualify and the additional steps that 
are necessary to make the infrastructure more secure?
    Mr. Russell. Thank you for the question. Certainly, TSA did 
update the guidelines in 2018. So, that is a good thing, to 
make them more current. But it is really some of those key 
terms. What does mass casualty mean? How does that translate to 
the area you are operating in? Again, issues around the 
criticality, what exactly does that mean? So, I think either a 
glossary or more specificity around some of those key terms is 
what we are proposing that TSA try to do.
    Mr. McNerney. Good. Thank you.
    Commissioner Friedeman, how do you deal PHMSA's shortage of 
personnel? Is that a factor affecting your capability to do 
your job?
    Mr. Friedeman. Not that I have been informed from our 
staff, recognizing, however, that there is an assessment on 
basically an operator's proportionate throughput that offsets 
any shortfall relative to funding. So, there is a budgetary 
opportunity on the part of the commission to address some of 
the issues inferentially that you are talking about.
    Mr. McNerney. OK. Thank you.
    Mr. Chairman, I yield back.
    Mr. Rush. The Chair thanks the gentleman.
    The Chair now recognizes Mr. Johnson of Ohio for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Friedeman, welcome today from the great State of Ohio. 
We may have covered some of this ground already, but I want to 
dig in a little deeper. I really appreciate you being here to 
discuss how the Public Utilities Commission of Ohio best keeps 
our pipeline systems functioning and safe. Ohio's safety 
program has received the maximum score available, as you know, 
on PHMSA's audits over the last 2 years, which I think 
demonstrates how seriously PUCO takes pipeline safety.
    Now I appreciated that in your testimony you reiterated 
PUCO's mission Statement, which focuses on reliability and 
safety, but also affordability. And I am sure each of these 
issues were taken into consideration when Ohio developed its 
accelerated pipeline replacement program.
    So, I know Congressman Latta got into this a little bit, 
but can you talk a little bit deeper about the program's 
importance and your commission's replacement program and your 
commission's role to ensure that pipeline rates are adequate 
and just to allow for pipeline replacement and modernization?
    Mr. Friedeman. Yes, sir. Thank you for the question. Thank 
you for the comments relative to the PUCO.
    As I had indicated previously, the costs associated with 
the investments are obviously socialized across ratepayers. So, 
there is a need to balance, once again, to attempt to achieve 
the equilibrium between benefit and cost. And that is really 
something that is, I think, inherit in the nature of the 
recovery mechanism that we use relative to using a rider, 
rather than waiting for a rate case. So, that enables the 
commission to review on an annual basis.
    Mr. Johnson. What are some of the balancing factors? I 
mean, when you talk about your philosophy of balancing quality 
and safety with cost and acceleration, what are some of the 
factors that you use to balance all of that out?
    Mr. Friedeman. Well, obviously, one of the key 
considerations is bill impact, recognizing again that 
affordability is a function--affordability across all 
ratepayers. That is, from the highest perspective, the 
consideration relative to the social costs associated.
    In terms of the implementation of the program itself, there 
is a recognition that bare steel cast iron noncathodically 
protected infrastructure is subject to deterioration over time. 
So, basically, the staff, in conjunction with, in cooperation 
with the utilities in the State, identified pipelines that fall 
within the bucket targeted for replacement. And it was a very 
methodical approach that was started over a decade ago, and I 
believe that the various utilities are at various stages of 
completion, but that all four of the major investor-owned 
utilities are intending to complete their programs by 2033. And 
to the credit of other utilities, not those of the big four, 
they are beginning to adopt the same process, or at least 
express an interest in doing so, recognizing, I think, the 
benefits to be derived.
    Mr. Johnson. OK. All right. Well, thank you.
    Administrator Elliott, as you know, PHMSA's State partners 
oversee more than 80 percent of the Nation's pipeline 
infrastructure, especially the gas distribution pipelines that 
connect our homes and businesses to the main transmission 
system. Can you talk a little bit about State programs and the 
methodology that PHMSA uses to distribute pipeline safety 
grants?
    Mr. Elliott. And, Congressman, thank you for the question. 
There are all but two States that participate in the State 
program with PHMSA. Alaska and Hawaii are the two. So, on an 
annual basis, PHMSA will work with the State to receive 
information about their current inspection program, about the 
goals that they have achieved, about the staffing that they 
have. We take that information, and then, we will conduct a 
review of the State program, looking very much at the same 
information, the adequacy of the program. Is staff adequately 
trained? Are they meeting their goals?
    And then, with the dollars that are allocated to PHMSA as 
part of our State-based grant, we look at the dollars that the 
State has projected that they have for the State program. Then, 
we add those dollars, and then, factor in the score. And that 
ultimately provides the funding to the State.
    It has been mentioned before that, while PHMSA can fund up 
to 80 percent, over the last few years it has hovered more 
closely to about 70 percent. And actually, one of the things 
that we have done--we recognize the importance of funding the 
State programs. Occasionally, we will get a question about, 
well, what do you do for poor-performing States? And one of the 
answers is we can reduce the amount of funding, but, to me, 
that is counterproductive. Why would you reduce the amount of 
funding? So, we try to keep the funding as robust as possible. 
But, in the last few years, we have actually taken some unused 
funds at PHMSA and moved it over to the State-based program to 
put in as much dollars as we can for the program.
    Mr. Johnson. OK. Well, thank you.
    And I apologize for going over, Mr. Chairman. Thanks for 
the indulgence. I yield back.
    Mr. Rush. The Chair now recognizes Ms. Kuster from New 
Hampshire for 5 minutes.
    Ms. Kuster. Thank you, Mr. Chairman.
    And thank you to all of you for being with us today.
    I want to dive right into an accident that was very close 
to home in the neighboring community. In September of 2018, an 
accidental release of high-pressure gas caused an explosion 
just across the border from my district in Lawrence, Andover, 
and North Andover, Massachusetts, referred to as the Merrimack 
Valley incident. Over 130 structures were damaged as a result 
of the accident. More than 20 individuals were injured and, 
very sadly, one person lost their life.
    So, what we have learned is that the tragic accident could 
have been completely avoided. And it is imperative, in my view, 
that Congress work to identify additional safety measures that 
can help prevent these types of accidents. So, I want to 
address Mr. Elliott. My understanding is, in 2011, the Pipeline 
Safety, Regulatory Certainty, and Job Creation Act required the 
use of automatic or remote-controlled shutoff valves on 
transmission pipelines, but, to date, PHMSA has not implemented 
this mandate, despite the NTSB finding that the use of the 
automatic shutoff valves is effective in preventing and 
reducing the severity of pipeline explosions. So, my question 
is, why has PHMSA not implemented this mandate over 8 years 
since this bill was signed into law?
    Mr. Elliott. Thank you for your question, and we continue 
to feel for the Rondon family and the loss of their loved one 
in the incident up in Massachusetts.
    You are correct that the requirement for automatic shutoff 
on transmission lines is part of the rupture detection and 
valve rule. In this case, we were dealing with a gas 
distribution line. And so, the rules didn't necessarily apply 
there.
    But let me just expand what I think needs to be done or 
what we can do there. And I think it is important to say----
    Ms. Kuster. And is there any sense of urgency?
    Mr. Elliott. Congresswoman, I think there is a significant 
sense of urgency. I think this is a case, too, where the 
importance between PHMSA and the State partners actually works 
as intended. This was, in every sense of the word, a monumental 
failure on the part of the operator. We set the minimum 
standards, Federal standards, for pipeline safety. States can, 
and have for many years--and it has been over 50 years that 
States have been allowed to oversee their intrastate process--
but the States had the ability where, if it is not in conflict 
with the minimum Federal regulations, to apply their own 
regulations to strengthen what the Federal Government has in 
place. And that is exactly what happened in Massachusetts. If 
you recall, the State legislature included specific language 
that now requires a professional engineer to sign off on the 
plan, in the belief that doing that would have prevented this 
incident.
    The minimum Federal requirements are very clear. They 
require qualified individuals and a qualification process at 
every step of the process. So, we believe that the Federal 
standards, if they had been adhered to in the Merrimack Valley 
incident, would have prevented this. But this is a good case 
where the State felt they needed to go above and beyond the 
Federal standards.
    I think, going back to your original question, I think 
there will be a lot further discussion about the importance of 
automatic shutoff valves not just on transmission lines, but on 
gas distribution lines.
    Ms. Kuster. So, what is the holdup from instituting this 
requirement?
    Mr. Elliott. Right. Well, as I had mentioned before, the 
rupture detection and automatic valve rule is probably one that 
has languished the longest at PHMSA. It is in a Notice of 
Proposed Rulemaking stage. We have finished our work on it. And 
I have committed that we will move that not only into the 
Notice of Proposed Rulemaking, so we can get it out to get 
public comment, but, then, move it to the final rule as quickly 
as possible. It is still on schedule to become a final rule 
before the end of the year.
    Ms. Kuster. Can I ask you, do you know what percentage of 
new pipeline infrastructure has automatic shutoff valves? Is 
this accepted technology now and it is being installed?
    Mr. Elliott. I do not know specifically, but I can 
determine that, and I will as quickly as possible get back to 
you with that information. But I don't have the specifics of 
that.
    Ms. Kuster. And what is your sense of the timeline for when 
Congress can expect, and the public, the American public, for 
the mandate for the automatic shutoff valve to be implemented?
    Mr. Elliott. Well, again, that rule, even though it is in a 
Notice of Proposed Rulemaking stage, we still have it on the 
books to be completed in this year. That may be a bit 
aggressive, but we are going to work as hard as we can at PHMSA 
to move that bill forward.
    Ms. Kuster. I appreciate that, and I urge you, the urgency 
of now to protect our constituents. So, thank you.
    I yield back.
    Mr. Elliott. Thank you, Congresswoman.
    Mr. Rush. The Chair thanks the gentlelady.
    The Chair now recognizes the gentleman from Indiana, Mr. 
Bucshon, for 5 minutes.
    Mr. Bucshon. Thank you, Mr. Chairman.
    I think you can see the bipartisan frustration with delays 
in action from Federal agencies. This is, not blaming anyone 
here, but this is kind of a frustration not only in this area, 
but across the board where congressional intent, determined and 
passed into law sometimes decades before, has not been carried 
out. And it is a frustrating problem, and it sounds like you 
are doing the best, Mr. Elliott, at least at PHMSA to resolve 
some of those frustrations.
    I also want to say that, just as technology evolves in our 
own personal lives--you know, no one would go out and buy a 
computer with 20-year-old technology--we shouldn't be putting 
pipelines in the ground with 20-year-old technology. As Mr. 
Griffith pointed out, there is new technology, including fiber 
optics, that, in my view, if we are putting new pipeline in the 
ground and technology exists, we should find a way to utilize 
that, because we wouldn't buy a computer for ourselves with 20-
year-old technology. It makes no sense. This happens across the 
Government, and it is very frustrating. I understand that there 
are stakeholders and there are costs involved in new 
technology, but we need to be more nimble in this process, 
especially as it relates to something as critical as pipeline 
safety,
    So, with those opening comments, Mr. Friedeman, I have a 
question. This has been addressed a little bit. But I 
understand over the last several years States have implemented 
mechanisms to accelerate the replacement of pipelines. That is 
a positive thing. In your testimony, you explain how these 
campaigns have helped rapidly modernize Ohio's aging 
infrastructure with over 5,000 miles of distribution main lines 
and more than 1 million service lines being replaced since the 
inception of the program nearly a decade ago.
    How do you at the State level balance the need for these 
investments with, ultimately, the cost that is borne by the 
ratepayers? It is a difficult balance, I understand.
    Mr. Friedeman. Yes, sir, it is a difficult balance. I think 
it is a qualitative as much as it is a quantitative assessment.
    Mr. Bucshon. Yes.
    Mr. Friedeman. As I indicated previously, there is a 
sensitivity relative to affordability, an acknowledgment that 
affordability is not a constant across all ratepayers. And 
then, it is very difficult, as you suggest, to assign a 
quantitative value to that. It is a consideration. It is a 
variable that goes into the decisionmaking process. I can't be 
more specific than that. I am sorry, I hope that is 
responsive----
    Mr. Bucshon. No, that is. I mean, it is a difficult process 
as it is in southern Indiana, you know, and the State of 
Indiana, where we have the need for updating pipelines and 
other infrastructure. And then, of course, people like me hear 
back from our constituents about that, and I think sometimes 
maybe we don't, as a society, give as much information about 
the process to everyone, so that people understand. I think 
most people understand, if you have more safe and updated 
pipelines, that may necessitate in the short run, or even in 
the long run, higher rates to cover the capital improvements 
that have been made. And I think sometimes the frustration that 
I hear is that that understanding of that is not projected as 
well as it could be maybe to the ratepayers. And I am sure you 
guys do a great job of trying, doing your best to do that. But 
I would encourage everyone to try to project that to the 
ratepayers, because we hear about it.
    We also hear about unfunded mandates from the Federal 
Government, and specifically, EPA and a number of other 
agencies that are blamed for that. But, many times, again, it 
is just a frustration.
    Mr. Russell--and I have about a minute--as you know, risk-
based decisionmaking is the best way to approach complex 
problems like cybersecurity, especially when you are dealing 
with 2.7 million miles of pipelines. Is it true that TSA is not 
attempted to understand the relative risk of a safety instant 
among the Nation's most critical pipelines? Would you say that 
that is true or not true?
    Mr. Russell. I think, for their older risk assessment, the 
one that was done in 2014, one of the observations was not 
factoring in maybe some of the PHMSA safety data that would get 
at the age of a system and how that might affect the system's 
vulnerability. And that is one of the things we would like to 
see them take on.
    Mr. Bucshon. OK, great. And then, the last thing I will say 
is I am still struggling, me personally, to understand why the 
TSA, as the agency of record on some of these things--and I 
suspect that has happened over time--but I think someone 
mentioned that maybe we should revisit the jurisdictional 
issues related to pipeline safety as part of our 
reauthorization. I just want to throw that out there.
    Thank you. I yield back.
    Mr. Doyle [presiding]. The gentleman's time has expired.
    The Chair recognizes Mr. O'Halleran for 5 minutes.
    Mr. O'Halleran. Thank you, Chairman and Ranking Member, and 
to all our witnesses before us today for joining our 
conversation on how Congress can ensure the pipelines of today 
do not harm our citizens, our economy, and environment of 
tomorrow.
    I believe Congress has a duty to legislate; the agencies 
have a duty to carry out the laws and implement regulations in 
the spirit of the statute. In this vein, Mr. Chairman, it is my 
hope that we, as a committee, can continue working in a 
bipartisan fashion, as we have in the past, to reauthorize the 
Pipeline and Hazardous Materials Safety Administration's 
pipeline safety program.
    Administrator Elliott, I thank you for appearing before our 
committee today to provide perspective regarding pipeline 
safety issues. However, given TSA's role overseeing their 
pipeline security program, and with the growing threat of 
cyberattacks facing our Nation, I find it troubling that TSA 
neglected to send a representative to appear before us in this 
vein. Hiding from the GAO report's negative findings is not the 
way to do this. Sooner or later, the TSA will have to let the 
American people know why they have not met their duty. And I 
just, having been involved in public safety in the past, I just 
can't imagine why this type of process is not addressed in an 
appropriate way.
    Administrator Elliott, I appreciate the diligent, behind-
the-scenes consultation you described in your testimony before 
our agency issues a rulemaking. However, since you became 
Administrator, which specific new actions and processes have 
you put into place to ensure these rulemakings are done in a 
timely fashion?
    Mr. Elliott. Well, Congressman, thank you for the question, 
and especially with regards to security. I think Ranking Member 
Upton said it best. At PHMSA, we understand you can't separate 
safety and security, and even though we have the safety 
function, the professional men and women of PHMSA that are out 
doing the inspections, I think it is worth mentioning, also are 
trying to, where they can, identify security concerns and 
convey that back to the industry and our colleagues at TSA.
    With regards to what we are doing to try and expedite the 
rulemaking process, besides focusing on the sheer importance of 
moving the mandates, which I can guarantee we focus on every 
day, one of the things we have done that may have had, or will 
have, the best outcome is, you know, PHMSA really is two modal 
administrations in one. And we have actually just started to 
complete the work of basically bringing all the rulemaking 
activities into one single entity within PHMSA. And that's 
going to allow us to be more agile, more responsive to 
rulemakings, both on the pipeline and the hazardous material 
surface transportation side. It basically gives us the same 
ability to bring new resources together to form a single entity 
that is going to allow us to do work quicker and more 
efficiently, and again, as we say, flex more, depending on 
where the regulatory need is going to be. So, that is probably 
the most important thing we have done, other than focusing on 
mandates each and every day, sir.
    Mr. O'Halleran. I thank you.
    Section 30, Mr. Elliott, of the 2011 Pipeline Safety Act 
requires development of protocols to consult with Indian tribes 
that have hazardous material pipelines within their 
jurisdiction, and we know many of them do. How would you 
describe the agency's protocols to work with tribes on a 
pipeline near a reservation boundary and with the spill 
response zone entirely within the reservation?
    Mr. Elliott. Congressman, thank you for the question. 
Actually, I think it is good, and I will explain why. It was 
last year, in 2018, that one of the senior field members of the 
pipeline team actually prepared a protocol that sets out how we 
are going to communicate with tribal authorities before we go 
in to do inspections, typically, with oil and gas operators. 
That is kind of independent of what the operators do, but we 
feel that it is absolutely necessary to make sure that we 
provide the communications, and more importantly, the respect 
to the tribal leadership about the pipelines that operate 
underground within their territories. But I think, more 
importantly, to also create a stronger link between the tribal 
leadership and the PHMSA representatives, so they know who to 
call.
    Mr. O'Halleran. Thank you, Mr. Elliott.
    Mr. Chairman, as a citizen--forget the fact that we are 
here in Congress--but, just as a citizen, it really perturbs me 
that an agency of Government does not appear before the 
oversight committee.
    Thank you very much.
    Mr. Doyle. The gentleman yields back.
    I think both sides of the aisle and this entire committee 
shares your thoughts on that.
    The Chair now recognizes Mr. Walberg for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    And thanks to the panel for being here.
    Administrator Elliott, thank you for being here, and thank 
you wearing that amazing blue tie. With a Buckeye at the other 
end of the table, we appreciate a Wolverine representation 
there.
    [Laughter.]
    I don't know if anybody else noticed, but I did. And after 
the 10 years football drought we have had, we will take 
anything.
    Mr. Elliott, as you know, one of the challenges for States 
in colder climates like Michigan is inspecting pipelines for 
potential cracks, leaks, and not having to shut off or disrupt 
gas flow, especially in winters like last winter with the polar 
vortex that we experienced. That is why I am excited about the 
development of new technologies like robotic smart pigs for in-
line inspections that could be used to help make pipelines 
safer. Other developments in recent years include drones for 
mapping and detecting leaks, software solutions to help analyze 
pipelines, and, as Mr. Griffith mentioned, fiberoptic cable 
technologies.
    My question is, how does PHMSA work with operators or other 
technology innovators to develop and identify potential 
technologies for further attention in its regulatory processes? 
And secondly, what could Congress do to help drive innovation 
and foster an environment where operators can incorporate new 
technologies and best practices?
    Mr. Elliott. Well, Congressman, thank you for the question. 
With regards to my tie, while it is not the beloved cream and 
crimson of my Hoosiers, at least it is Big 10 colors.
    Mr. Walberg. Thank you.
    Mr. Elliott. You are welcome.
    With regards to how we can continue to foster accelerated 
growth in technologies, especially technologies that provide 
greater safety, as I mentioned earlier, I think there are two 
important ways to do that. One is the absolute responsibility 
of PHMSA, and not only me, but the staff--I get the opportunity 
to talk to a lot of oil and gas executives, and it is probably 
one of the first points that I always make about the importance 
of safety technology and how we need to continue to invest, 
again, not so much in safe R&D, but, basically, some of the 
step-change safety that will help, I think, get us this next 
level of safety.
    But I think the second part is from the congressional point 
of view. I think, again, have this great thirst to understand, 
I mean to ask industry to come in and be very specific about 
their paths to more aggressive implementation of this safety 
technology.
    I came from the railroad industry where we have seen 
tremendous improvements in technology and R&D, all designed to 
eliminate causes of incidents that will create catastrophic 
incidents, rail incidents. And I have seen the same thing in 
the pipeline incident.
    But I think the one thing that is missing is the ability to 
communicate that effectively to those people, both on the 
regulatory side as well as the congressional side, to fully 
understand what is going on, and then, to provide good 
recommendations about how all that good work can be----
    Mr. Walberg. How the program is helpful?
    Mr. Elliott. Yes.
    Mr. Walberg. Thank you.
    Mr. Friedeman, as we have heard today, while PHMSA still 
has mandates for the 2011 reauthorization unfinished, they have 
made the most of the resources they have to bring these complex 
technical rulemakings close to the finish line. However, as you 
noted in your testimony, States can play an important role in 
taking some of the burden off of PHMSA by assuming safety 
authority over interstate gas pipelines. Like Ohio, Michigan is 
one of only eight States that act as interstate agents and 
perform inspections. Can you describe how your relationship 
with PHMSA has impacted the overall safety and integrity of 
Ohio's pipeline system?
    Mr. Friedeman. In my discussions with the safety team at 
the commission, once again, anecdotally, that relationship I 
think is perceived by staff to be very productive, to be 
mutually respectful. And I believe there is, in becoming an 
interstate agent, an assumption of responsibility and an 
acknowledgment of the responsibility to promote the welfare of 
the citizens of Ohio. I would commend the State of Michigan for 
doing the same. I would believe that there is that same 
assumption of responsibility and acknowledgment at play there.
    I think, given the activities within the State of Ohio that 
I, hopefully, described today, you can appreciate the sheer 
magnitude of pipeline activity nationally. I mean, it is 
absolutely remarkable. There are in excess of 2 million miles 
of distribution, transmission, and gathering lines.
    In order to accept the charge of a regulator or 
responsibility of a regulatory to promote general welfare and 
the delivery of adequate and reliable service, and safe 
service, I think the magnitude underscores the compelling need 
of the parties to act in a cooperative and coordinated fashion. 
Again, I believe that the relationship between PUCO and PHMSA 
is a clear demonstration of what can be accomplished through 
that coordination.
    Mr. Walberg. OK. Thank you.
    I yield back.
    Mr. Rush [presiding]. The Chair now recognizes the 
gentleman from North Carolina, Mr. Butterfield, for 5 minutes.
    Mr. Butterfield. Thank you very much, Chairman Rush. Thank 
you for holding today's hearing.
    This topic is a very timely one for my district, as two 
people tragically lost their lives, and others were seriously 
injured, as a result of an explosion originating from a natural 
gas line in Durham, North Carolina, that occurred on the 
morning of April 10th of this year. I just received a news 
break just a few moments ago that there is yet another gas leak 
in the 500 block of Duke Street there in Durham. We don't know 
the extent of it. The news reports are that no one has been 
injured, and that is a good report.
    But, Mr. Chairman, the explosion in Durham demonstrates 
just how important the safety and security of our pipelines are 
and how the work of this subcommittee to reauthorize the 
Federal pipeline safety program is critically important.
    And let me thank the three witnesses. But I will first 
address this question to the Administrator. Do you have any 
knowledge of the Durham explosion that I made reference to a 
moment ago?
    Mr. Elliott. Congressman, yes, I do.
    Mr. Butterfield. Can you elaborate on it for me, if you 
could?
    Mr. Elliott. Congressman, we were saddened to learn of the 
second loss of life from this incident.
    When incidents occur--and we are very thankful that in the 
State of North of Carolina we have a very good pipeline 
partner--but what we typically do anytime that there is a 
fatality, serious injury, or significant evacuations, we will 
dispatch members of our Pipeline Accident Investigation 
Division to go in and assist the State. And I need to 
underscore that, assist the State, because they have the 
predominant oversight.
    We know that, when we arrived, it was still kind of being 
treated as a fire scene and that other agencies were there as 
well. We worked with our State partners, and I do know that one 
of the problems in helping, that has prohibited us from 
basically understanding the specific point of damage with the 
distribution line is the damage to the building and the 
asbestos-containing material and the debris. So, they have 
actually had to do an asbestos cleanup.
    We know that they are getting close to being able to do the 
excavation of the actual distribution line that was hit by the 
boring machine. Our accident investigation team will be there 
again to assist the State. And then, once that area is 
uncovered, then that piece of pipe will go to, typically, go to 
a laboratory for analysis. So, we will continue to work with 
the State to assist in the investigation in any way we can.
    Mr. Butterfield. But, based on you investigation thus far, 
do you believe that there could have been anything done to 
avoid this explosion?
    Mr. Elliott. Well, you know, this was a case where the 
excavation putting in the fiber optics had done the one call. 
The lines had been marked. But I think one of the 
determinations we are going to have to make is whether or not 
this was an area where the operator would have been required to 
do an excavation, to hand dig, and look to make sure that the 
directional boring didn't strike the distribution line. So, I 
think we will know more after the investigation is complete, 
Congressman.
    Mr. Butterfield. Thank you.
    Mr. Chairman, I yield to my friend from Iowa, if he wants 
to consume some of my time. If not, I will yield back.
    Mr. Loebsack. Go ahead.
    Mr. Butterfield. I yield back. Thank you.
    Mr. Rush. The Chair recognizes Mr. Olson for 5 minutes.
    Mr. Olson. I thank the Chair for holding this very 
important hearing to Texas 22.
    And welcome, to our three panelists, to the first panel.
    My first question is for Administrator Elliott. As you 
might know, I represent one of the fastest-growing communities 
in the country. Our pop base in Texas 22 is booming. In some 
areas, we have thousands and thousands of families who are 
living on a land that used to be rice, sugarcane farms, and 
cattle operations. That has made big changes for flood control, 
like Hurricane Harvey, but it has also put a challenge on 
pipeline safety. Clearly, there are pipelines all across Texas 
that used to be under wide-open spaces that are now under 
families' feet and schools. My district has that problem, that 
situation, over and over and over.
    I would like to ask you about how inspections and, quote/
unquote, ``class location rules'' change as land above 
pipelines changes. Am I correct that there has been a rule in 
the works since 2013? And will you work closely with Congress 
to make sure you all are taking it seriously?
    Mr. Elliott. So, Congressman, thank you for the question. 
With regards to how class location evolves with the increase of 
population, as you know, there are several class locations. And 
as new growth occurs near a pipeline, then there are certain 
restrictions, and it is the responsibility of the operator to 
determine that growth. Are there now buildings and populations? 
And then, they have the responsibility to do several things. 
One of them is to reduce the pressure of the pipeline that is 
now going through this high-consequence area, part of the class 
location.
    Mr. Olson. One question for you on your workforce. At 
breakfast this morning with a lead in the energy operations, 
somebody in touch with the pipeline industry. And they are 
concerned because they admitted they poach your people. Your 
people, our best and brightest, they can pay them a lot more 
than you can pay them.
    Mr. Doyle and I have a bill that addresses this for FERC by 
addressing them to have higher pay than the normal Federal 
level. Would that be something you would like to have? Have a 
little weapon to keep them? Because, again, they admitted these 
are great people; we want them in our employ; and so, we are 
poaching off of PHMSA.
    Mr. Elliott. Well, certainly we are in competition with 
industry. And when we do hire pipeline inspectors who typically 
have engineering degrees, and after we put them through some of 
the best possible training, they even become more marketable to 
industry folks. So, we are always looking at ways, Congressman, 
to find new sources of recruiting. I mentioned a little 
earlier, our HR Director has actually been tasked to go into 
colleges and universities that have engineering programs and, 
basically, do a better job of selling the safety mission of 
PHMSA, because I think that is attractive to a lot of folks.
    We continue to look at ways to incentivize individuals that 
want to come to work for PHMSA. One of the most alarming things 
to me, for example, we had 10 job offers out for pipeline 
engineers. Sixty percent turned that offer down for various 
reasons. Many of those are actually because they had better 
offers elsewhere.
    So, I guess that is a long way of saying we probably would 
encourage any help we could get to better incentivize 
pipeline----
    Mr. Olson. So, it would be OK with more money, not the 
restrictions that are placed right now, something like the SEC 
has to regulate securities and exchange. Would you be OK with 
more money to pay these people?
    Mr. Elliott. I would be happy to see that, but I will work 
with whatever tools I have.
    Mr. Olson. Yes, sir, that is our toolbox to give you.
    The last questions is, Commissioner Friedeman of Ohio, as 
Texas 22 grows, we know that a lot of new pipe is being built, 
especially for local distribution lines. You described in your 
testimony how one phase is replacing older existing lines. Can 
you talk about how pipeline technology has changed in recent 
years and what this means for safety and spill prevention?
    Mr. Friedeman. I think inherent in the replacement program 
is that, first of all, it is an inevitably long duration 
because of the scope of the activity required. And the natural 
consequence of that is technological advancement as the program 
evolves. An illustration of that would be the composite 
material in plastic. So, there is a certain remedial nature 
when you have an accelerated main replacement program that 
identifies pockets and susceptibility. When you replace old 
infrastructure with new infrastructure, not only are you 
mitigating the risk associated with leakage, but what you are 
doing is replacing it with technologically improved composite 
material at the time, which should, then, extend the useful 
life beyond that which was historical. So, there is just an 
inherent benefit to a well-coordinated program.
    Mr. Veasey [presiding]. I thank you.
    I yield myself 5 minutes.
    Mr. Elliott, I wanted to ask you, in your testimony you 
reiterated that, ``The mission of PHMSA is to protect people 
and the environment by advancing the safe transportation of 
energy products and other hazardous materials that are 
essential to our daily lives.'' And most of the time, we do 
pretty well at achieving this mission, but incidents are too 
frequent, and everybody knows that we have to do better.
    Last year, February the 23rd, Linda Rogers was just 12 
years old when she was killed by a natural gas leak and an 
explosion in her family's home in the district that I represent 
in Dallas. And we know the difference between transmission and 
distribution of natural gas, and the different approaches to 
safety that are obviously required for each of those. But, 
after this explosion, more than 300 nearby homes were evacuated 
due to the quantity and severity of the natural gas leaks 
discovered in the residential neighborhood, and reports show 
that more than 2 dozen homes across the north Texas and central 
Texas area have blown up since 2006 because of leaking from 
natural gas pipelines. And tragically, nine people have died 
and at least 22 others have been injured badly.
    I appreciate you making clear in your testimony that 
completing the hazardous liquid rule, which includes installing 
a leak detection system, is one of your highest priorities. Do 
I have your commitment on making leak detection systems a 
priority in this rule?
    Mr. Elliott. Yes.
    Mr. Veasey. Beyond a rulemaking effort, there are recent 
pipeline industry-recommended practices addressing pipeline 
safety systems, leak detection, and integrity management 
systems that have been developed by the American Petroleum 
Institute in response to recent disasters. What are you doing 
to incorporate industry-recommended practices into your regular 
scheme?
    Mr. Elliott. Congressman, thank you for the question. And 
we are very aware of the tragic incident in Dallas with Atmos 
Energy. And, similarly, we had sent inspectors and 
investigators to work with the Texas Railroad Commission. We 
continue to work with them on some of the ongoing concerns.
    But we will, with regards to the mandates, we will continue 
to work to complete those that will bring the greatest safety 
value to not only protecting people, as you said, as well as 
the environment.
    Mr. Veasey. Do you have any programs or efforts to collect 
and promote industry best practices?
    Mr. Elliott. And again, yes, and to that, we regularly will 
look at industry standards that have been in practice for a 
while that have shown tangible safety benefits. And we will, 
then, through incorporation, make those regulations. We have 
several of those that we are working on now, working on the 
language, and several of those deal with pipeline safety.
    Mr. Veasey. Thank you.
    And just kind of switching gears, I wanted to ask, as you 
know, in today's pipeline technology, we have a lot of 
technology that is being used for leak detection, different 
things like that, to make sure that the transmission of natural 
gas is being done safely. What is being done, because we have 
talked a lot about it on the grid, but you don't hear it a lot 
as it relates to pipelines, like hacking, the technology 
actually being compromised as it relates to transmission of 
natural gas through pipelines?
    Mr. Elliott. Well, I think, as some of the discussion today 
has pointed out, you cannot separate safety and security. And 
while we work every day to improve safety, we understand we 
also have a responsibility, where we can, to help improve 
security. And one of those areas, actually, that is ongoing now 
is we are trying to understand, Congressman, how we can go into 
major pipeline control rooms that control these operations, 
some of them many thousands of miles in length, and perhaps be 
a little better armed to ask the pipeline control room 
operators questions about their SCADA security systems. Are 
they adhering to best practices within the cybersecurity realm? 
Again, we don't profess to be the security organization, but I 
think we can probably do a better job of ensuring that we ask 
the right questions to help understand that they are, in fact, 
doing that.
    Mr. Veasey. Do you feel that the people that are actually 
providing the technology, the technology that is being provided 
to the pipelines, that those companies are being vetted enough 
and that whatever they are providing to these pipelines is 
secure enough to make sure that any sort of hacking isn't 
taking place, and that those companies aren't somehow complicit 
with that?
    Mr. Elliott. Yes, it is certainly outside of my real area 
of expertise, but I can tell you, again, I fall back on my 
railroad experience, because we had the same issue with 
dispatching of trains and the concerns about cybersecurity and 
positive train control.
    And I will tell you, I have every reason to believe that 
the vetting of companies that are involved in providing that 
kind of SCADA system, cybersecurity link--I have no reason to 
believe that the oil and gas industry do not adequately vet 
those companies.
    Mr. Veasey. Thank you very much. I appreciate you.
    Now I yield 5 minutes to the gentleman from North Carolina, 
Mr. Hudson.
    Mr. Hudson. Thank you, Mr. Chairman.
    Mr. Elliott, good to see you again. Thank you for being 
here with us today to examine ways to increase the safety of 
our constituents and all Americans.
    While pipelines are the safest means of energy 
transportation, unfortunately, there are from time to time 
instances of failure. In these moments, it is critical our 
first responders are trained and prepared to handle these 
dangerous situations. Back home in North Carolina, some local 
and small fire stations don't have the budget to send their 
first responders to specific emergency pipeline safety. Last 
year, we had over 70 emergency responders take free online 
classes to receive pipeline emergency response training.
    By using technology, we are creating safer communities. In 
recent years, technology has been developed to internally scan 
pipelines to find issues and detect leaks before they become a 
problem. I know a lot of the questions today have surrounded 
technology, but do you want to just, more generally, add more 
detail to what PHMSA is doing to encourage pipeline operators 
to continue innovating and incorporating the most cutting-edge 
technologies and best practices?
    Mr. Elliott. Congressman, thank you for your question. And 
the first part of the discussion, I don't think we can ever do 
enough, especially in rural areas with volunteer fire service 
companies, to do enough in industry, whatever it may be, to 
train our emergency responders enough. We did that religiously 
in the rail industry, and I know the pipeline industry has 
similar practices. But that is something I totally support.
    Again, I go back to the topic about technology and 
innovation, I guess my one area--and I don't necessarily 
consider it a concern, but I think it is where we have to focus 
more--that is through the oil and gas pipeline industry. It is, 
again, to move away from what I consider to be safe R&D and to 
move into some of the more research and development work that 
will deliver further safety enhancements.
    You know, we have talked about, and I very rarely anymore 
talk about the fact that the pipeline industry has a rate of 
99.997 percent safety. Having come from a heavily regulated 
industry, I am of the belief that we are not necessarily going 
to be able to regulate that last little bit of safety. It is 
going to come through adherence to certain regulatory items 
like integrity management, I think adherence to very 
comprehensive safety management systems that are less driven by 
regulations, but more by the safety culture of the company. And 
I think continuing to drive and invest more in technology and 
R&D, again, that is more step change than some of the 
traditional in-line inspection R&D that is going on today. I 
think that is where we can have some of the best investments 
and advancements in safety.
    Mr. Hudson. I agree with you on that. Would you support a 
pilot program or an alternative process that would allow PHMSA 
to work more closely with pipeline operators on some of this 
newer, safer technology?
    Mr. Elliott. Absolutely. I mean, one of the criticisms that 
we have heard, rightfully so, from industry is we are too slow 
in allowing new safety technology to come to pass. As I have 
mentioned, we have to be absolutely sure that this new 
technology does, in fact, deliver not only the ability to 
extend the life of the infrastructure and to be a surrogate for 
physical inspection, but it has to deliver safety value. And 
sometimes it takes us a little longer to understand that. I 
think our special permit process is good, but I think there are 
ways we can improve the ability to move good technology into 
the application process faster than we are able to do it today.
    Mr. Hudson. Appreciate that.
    Do you have any recommendations for Congress on ways to 
encourage more early-stage R&D to supplement the work that 
PHMSA is doing today?
     Mr. Elliott. I mean, I do the best I can, so I will take 
whatever encouragement Congress can offer to provide greater 
investment and focus on R&D.
    Mr. Hudson. Well, I would just ask that maybe take that 
back and think about it. We would appreciate any advice that 
you have for ways we can partner with you, because I think we 
all agree, both sides of the aisle, we want these innovative 
technologies. We want to continue to move in the direction that 
you are describing where we continue to be on the cutting edge 
of safety and move as quickly as possible to keep our 
communities safe. So, if you would take that back as homework, 
and we would love to have any feedback you might bring back to 
us.
    Mr. Elliott. That is the kind of homework I appreciate. 
Thank you.
    Mr. Hudson. OK. Thank you.
    And with that, Mr. Chairman, I will yield back.
    Mr. Veasey. Thank you, Mr. Hudson.
    And now, I yield 5 minutes to the gentlelady from 
California, Ms. Barragan.
    Ms. Barragan. Thank you.
    Thank you for being here today, gentlemen.
    Are any of you familiar with the 2015 oil spill in Santa 
Barbara? Yes, Mr. Elliott?
    Mr. Elliott. Yes.
    Ms. Barragan. This was the Refugio State Beach spill.
    Mr. Elliott. Yes, the Plains issue?
    Ms. Barragan. All American Plains. Can you tell me how 
something like this happens and where the pipeline safety 
program that PHMSA, where do they fall into the picture of this 
spill?
    Mr. Elliott. Well, Congressman, thank you for the question. 
And undeniably, this was a significant impact. Matter of fact, 
I just sat through a briefing that NOAA provided last week that 
actually showed kind of the impact from the point of origin, 
where the oil came underneath the highway and down the 
embankment, and then, out into the coast.
    I do have to preface my remarks by saying, as you know, it 
is currently being litigated in the Department of Justice and 
involved in others. But I will tell you this: that from the 
PHMSA point of view, we really see this as a case where our 
integrity management rules and the responsibilities of this 
operator were not adhered to, and were not adhered to in a 
pretty significant way.
    Ms. Barragan. Well, there were multiple violations, right? 
And they weren't fixing what had to be fixed, isn't that right?
    Mr. Elliott. That is generally correct, yes.
    Ms. Barragan. How are the American people supposed to trust 
pipeline companies who can't do the right thing, and then, end 
up having a spill where you have the California coastline, just 
marine life, people, economy, and a huge impact? How are the 
American people supposed to trust when a company tells us day 
in and day out, ``Hey, we are going to come in; we are going to 
put this in; it is going to be safe; nothing is going to 
happen''?
    We hear the statistics on how safe it is. And then, you see 
these examples where there are constant violations and they are 
not doing the right thing. People start asking, Where is the 
oversight on this? I think it is hard for the American people 
to trust these pipeline companies. And it is hard as well when 
you hear that, since that time, there hasn't been a lot done, 
and there have been all these delays that are happening.
    And so, when you think about the President trying to open 
up new California coastline, and the coastline in general, to 
drilling, it is a huge concern, rightfully speaking, after you 
take a look at what has happened.
    Let me ask, the Trump administration's requested budget for 
PHMSA is roughly 8 percent less in 2020 than it was in 2019. 
How will that impact the pipeline safety program, and does it 
open us up to have more incidences of what happened in Santa 
Barbara, if we are putting less money into it than more?
    Mr. Elliott. Well, thank you for that question, very 
important points. I want to comment about what needs to be done 
for operators that don't follow the requirements. I think it is 
true in any case, and at least from my experience in a year and 
a half at PHMSA, that there is a spectrum. There are some 
extremely good, conscientious operators, and we are very 
thankful that they are there. And I understand the issue of 
public trust. All it takes is one operator to kind of dispel 
that trust.
    I think here, anyway, the process is working probably as it 
should, in that there were a number of parties to the 
investigation against Plains, and even criminal investigation 
and penalty. And again, I can't really get into it, but some 
discussion is ongoing about what the impact will be to Plains 
with regards to a settlement.
    But in regards to----
    Ms. Barragan. The budget cuts. Is the 8 percent budget cut 
going to make it more likely, less likely--I mean, how is it 
going to impact the pipeline safety program?
    Mr. Elliott. You know, I worked in my prior career to make 
sure that every dollar we have is effective in allowing us to 
conduct our safety mission. And I really see that we are able 
to do that at PHMSA. It is----
    Ms. Barragan. Mr. Elliott, I only have 10 seconds left. Is 
an 8 percent cut in the budget going to help safety and the 
pipeline safety program, yes or no? Is it going to help it?
    Mr. Elliott. So, I will make sure that there is no 
degradation in PHMSA's ability to conduct its safety mission 
with the dollars that are provided to us, whatever that may be.
    Ms. Barragan. Well, I don't have a lot of confidence in 
that, but thank you for responding.
    Mr. Elliott. I understand.
    Ms. Barragan. I yield back.
    Mr. Veasey. Thank you.
    And now, I would yield 5 minutes to the gentlelady from 
Washington, Ms. McMorris Rodgers.
    Mrs. Rodgers. Thank you. I thank the chairman for the time.
    And I appreciate all the witnesses being here. I think it 
has been a really important discussion, a discussion both on 
current standards and regulations and how we are doing as far 
as meeting those standards, but also looking at how do we do 
this in a smarter way, and embracing innovation and technology 
and the solutions that are before us. Because we all want to 
make sure that we are keeping our communities safe and our 
shorelines safe from these kinds of situations.
    I wanted to ask, Mr. Elliott, I just wanted to ask, coming 
from a rural area, I wanted to dig a little deeper into how do 
you approach pipelines in highly populated areas versus the 
rural areas, where there are less people and development. And 
we have class location requirements for pipelines located in 
areas where we have seen recent population growth. I just 
wanted to hear a little bit more about how do you go about the 
rural versus the more populated. And my colleague here from 
Texas talked about his growing area, too.
    Mr. Elliott. Well, thank you for the question. And 
certainly, there is an important dichotomy between oil and gas 
pipelines in populated versus rural areas. I really believe 
that it falls back to the absolute importance of adherence to 
the pipeline and safety, the Pipeline and Hazardous Materials 
Safety Administration's integrity management rules that require 
pipeline operators to have an absolute adequate understanding 
of all the operations within their network, whether or not it 
is a high-consequence area or a rural area, to make sure that 
that line is operating in as safe a fashion as possible, and 
that they are doing the appropriate inspections to ensure that 
any concerns that might be due to weld issues or lack of 
cathodic protection or corrosion are found and addressed long 
before they are ever an impact. And I think that our integrity 
management rules have been extremely effective over the years 
in making sure in holding operators accountable for 
understanding the health of their pipeline throughout their 
network, regardless of whether or not it is rural or high 
populated.
    Mrs. Rodgers. And would you also speak just to, what are 
the procedures that you have in place to determine the risk? 
Because whether it is rural or a growing area, or what happened 
on the California coast, what are the procedures that are in 
place to address the----
    Mr. Elliott. Again, that all, for the most part, falls back 
to the operator and the application of their integrity 
management system. But one of the items that we do at PHMSA, I 
mean, we do our own risk assessment to make sure that we 
adequately work with operators to do inspections of gas and oil 
pipeline systems, both in rural and high-density areas. Again, 
with limited resources, we use kind of a risk analysis. We look 
at the past history of the operator. We look at past incidents 
of problems with that pipeline. That helps us set our 
inspection process to look at these lines.
    Mrs. Rodgers. Would you update me on the review? I 
understand there has been a review underway since 2013 on the 
class location requirements.
    Mr. Elliott. So, the class location rulemaking that we are 
working on, we put out an Advance Notice of Proposed Rulemaking 
to seek comment about whether or not industry could use certain 
integrity management tools in lieu of having to take additional 
steps in the higher-level class locations, the high-density 
areas. In other words, can some of this technology and 
sophisticated in-line inspection capability replace the ability 
to have to reduce certain pipeline pressures?
    And I think it was mentioned earlier, and rightfully so, I 
mean, some of the growth is basically expanding so rapidly that 
it is difficult to basically take some of the steps that are 
currently part of the class location program. So, we are 
working through a Notice of Proposed Rulemaking that will help 
us understand more fully can we somehow apply additional 
integrity management inspection process to higher class 
locations as we see population growth.
    Mrs. Rodgers. OK. I had one more question, and this was to 
Mr. Russell, but I, too, am frustrated that TSA is not here. 
And I guess I will ask this final question on the record.
    Thank you very much. I have run out of time. I yield back.
    Mr. Veasey. Are there any more questions?
    If not, that concludes our first panel. I would like to 
thank our witnesses for joining us today to testify on this 
very important issue.
    And at this time, I ask staff to prepare the witness table 
such that we may begin our second panel shortly.
    Thank you. Thank you, participants.
    Mr. Veasey. We will now hear from a second panel of 
private-sector stakeholders. Those witnesses include Mr. Carl 
Weimer, executive director for Pipeline Safety Trust; Mr. 
Andrew Black, president and CEO of Association of Pipelines; 
and Ms. Christina Sames, vice president, operations and 
engineering services, American Gas Association.
    We want to thank our witnesses for joining us today. We 
look forward to your testimony, and at this time the Chair will 
recognize Mr. Weimer for 5 minutes to provide his opening 
statement.

STATEMENTS OF CARL WEIMER, EXECUTIVE DIRECTOR, PIPELINE SAFETY 
TRUST; ANDREW J. BLACK, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
    ASSOCIATION OF OIL PIPELINES; AND CHRISTINA SAMES, VICE 
 PRESIDENT, OPERATIONS AND ENGINEERING SERVICES, AMERICAN GAS 
                          ASSOCIATION

                    STATEMENT OF CARL WEIMER

    Mr. Weimer. Good afternoon. I would like to thank Chairman 
Rush and Ranking Member Upton for inviting me to speak today on 
pipeline safety and for--I would also like to thank this 
committee for continuing this bipartisan effort to protect 
people and the safety of America, as you always do.
    Before we get into various pipeline safety issues, let me 
give you a brief overview of where we stand today regarding the 
safety of pipelines in this country.
    While everyone testifying today supports the goal of zero 
incidents, we still have a long way to go to reach that goal. 
According to PHMSA data, since the PIPES Act was signed less 
than 3 years ago, there has been over 1,700 reportable pipeline 
failures.
    Over those failures, nearly 800 are considered significant 
incidents under PHMSA's definitions and the number of 
significant incidents had been increasing over the past decade.
    For the past 15 years, the emphasis in reducing pipeline 
incidents has been focused on performance-based integrity 
management programs in high consequence areas.
    Unfortunately, it would appear that these integrity 
management programs have not yet lived up to their promise as 
significant incident rates within high consequence areas 
continue to climb for hazardous liquid and gas transmission 
pipelines.
    The pipeline safety system that Congress has created also 
plays a part in PHMSA's inability to get things done. One large 
barrier to getting better regulations in place is the cost 
versus benefit analysis that Congress has uniquely created for 
PHMSA.
    With a large pipeline system where the probability of a 
failure is low but the consequences can be huge, it is nearly 
impossible to pass regulations under the current cost benefit 
rules.
    If you are really interested in longstanding issues such as 
effective leak detection, automated shutoff valves, regulation 
of over 400,000 miles of totally unregulated gathering lines, 
then the cost benefit language in the statute needs to be 
fixed.
    PHMSA's penalty authority also results in civil penalties 
that are economically insignificant to many operators and are 
much smaller than those imposed by some States.
    The wording in the statute for criminal penalties also does 
not align with the better wording for PHMSA's hazmat operations 
and creates a very high bar to prove. We have provided 
suggested changes to the statute that can give PHMSA more 
flexibility and penalty assessment in the ability to bring 
criminal charges on companies in the rare cases where that is 
warranted.
    As currently written, the pipeline safety statutes do not 
prohibit the release of gas or hazardous liquid from a 
pipeline.
    Under current PHMSA rules as determined by recent court 
rulings, an operator can cause a significant incident without 
necessarily having violated a safety regulation.
    In other words, under PHMSA's rules, an operator has to 
have a plan for operating and testing their pipeline but they 
don't necessarily have to have a plan that works.
    To close that loophole, we ask that you add language to 
make clear that the intent of the statute is to avoid releases 
of gas or hazardous liquids.
    In the PIPES Act, Congress asks GAO to produce important 
reports on the integrity management program for both natural 
gas and hazardous liquid pipelines after the new PHMSA rules, 
which they have been working on since 2010, are published.
    Since those rules have yet to be published and may be 
delayed further, these important reports are not yet due. The 
current integrity management rules have been in place for over 
a decade, are well understood, and NTSB has done a study on its 
effectiveness. So we ask that Congress direct GAO to produce 
these important reports as soon as possible instead of waiting 
for the proposed rules.
    Congress should also ignore industry calls for a relaxation 
of class location rules because of integrity management is in 
place until the GAO reports are done and the number of 
incidents under integrity management show a downward trend.
    Also in the PIPES Act Congress directed PHMSA to make it 
clear that the Great Lakes, coastal beaches, and marine coastal 
waters are considered unusually sensitive areas.
    This mandate has yet to be accomplished. The need to do 
this came as a surprise to us since, clearly, these are 
unusually sensitive.
    We were also surprised to learn that PHMSA does not 
currently have a way to define and map all such areas. Congress 
should also ask GAO to do a study of whether PHMSA's 
definitions and identification of such areas along with 
commercially navigable waterways are consistent with other 
environmental regulations and whether PHMSA currently has GIS 
data layers that allow the agency and the industry to know 
where such boundaries are. Users of this data are to ensure 
that pipeline operators are accurately identifying these areas.
    Congress should also mandate that such areas be made public 
so State and local governments, along with the public, can 
ensure that PHMSA and pipeline companies are considering these 
important areas.
    I see that my time is about up so I want to thank you again 
for asking me to testify today and I stand ready to help answer 
any questions and work on reauthorization.
    [The prepared statement of Mr. Weimer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Mr. Veasey. Thank you, Mr. Weimer.
    Mr. Black, you are now recognized for 5 minutes.

                  STATEMENT OF ANDREW J. BLACK

    Mr. Black. Thank you, Mr. Chairman, Ranking Member.
    I am Andy Black, president and CEO of the Association of 
Oil Pipelines. AOPL represents liquid pipeline owners and 
operators transporting crude oil, refined products like 
gasoline, diesel, jet fuel, and home heating oil, and 
industrial products like propane and methane.
    We have over 55 member companies which deliver over 21 
billion barrels annually over a 215,000-mile network of 
pipelines. I am also testifying on behalf of the American 
Petroleum Institute, which represents all facets of the oil and 
natural gas industry including exploration and production, 
refining, marketing, and pipeline and marine transportation.
    Pipelines are the safest way to deliver the liquid energy 
we all need and use every day. No other mode of transportation 
is as safe for the American people or the environment as 
pipelines.
    And pipelines are getting safer. Over the last 5 years, 
pipeline operators have reduced the number of liquid pipeline 
incidents impacting people and the environment by 20 percent.
    This is Government data publicly available from PHMSA. 
PHMSA data also shows pipeline incidents caused by incorrect 
operation impacting people and the environment are down 38 
percent over the last 5 years and pipeline incidents caused by 
corrosion, cracking, or weld failures impact people and the 
environment are down 35 percent over that period.
    Member companies of AOPL and API work hard to improve 
pipeline safety. We are transparent about where we are doing 
well and where we can do better.
    The statistics I just shared come from the performance 
report we develop jointly each year analyzing pipeline safety 
data. We use this analysis to guide our industry wide pipeline 
safety programs focusing on key safety issues as we strive 
towards the goal of zero incidents.
    Through this strategic effort, the pipeline industry has 
addressed key safety recommendations from Congress, PHMSA, the 
NTSB, and issues identified through analysis of safety data.
    Recent safety accomplishments include developing new best 
practices for finding and fixing cracking in pipelines, 
managing leak detection programs, responding to pipeline 
emergencies, and applying safety management systems to 
pipelines.
    API also just released an updated best practice for 
inspecting and performing maintenance on pipelines using the 
latest inspection technologies and analytical techniques.
    Harnessing technology to advance pipeline safety is a theme 
we are pursuing across industry and we recommend Congress adopt 
as well. For example, high-tech tools can travel inside a 
pipeline scanning it like an MRI or an ultrasound at the 
doctor's office.
    Pipeline operators have the opportunity to find issues 
early, perform preventative maintenance, and keep pipelines 
operating safely.
    The problem is Federal regulations can't keep pace with 
fast-moving technology innovations. Outdated PHMSA regulations 
sometimes conflict with the latest knowledge and techniques.
    Congress can do more to allow PHMSA and pipeline operators 
to improve safety by harnessing technology and innovation such 
as creating a pilot program to test pipeline safety 
technologies and approaches. We were thrilled to hear 
Administrator Elliott say ``Absolutely'' when asked if he was 
interested in authorizing a voluntary information-sharing 
program encouraging joint stakeholder problem solving, 
requiring regular PHMSA and stakeholder review of pipeline 
safety research and development advances, improving the 
approval process for alternative safety technologies, and 
encouraging voluntary discovery, disclosure, correction, and 
prevention of pipeline safety violations.
    Next, protecting public safety and the environment from 
attacks on pipelines is a top reauthorization priority for us. 
Pipelines are the safest way to deliver the energy American 
families and consumers use every day at their industrial 
facilities. Recent attacks on pipelines by turning valves or 
attempting to damage the pipeline itself are dangerous.
    Members of the public, surrounding communities, and the 
environment are put in danger by attacks on pipeline facilities 
that could easily result in a spill.
    Congress should deter future attacks against pipeline 
facility by closing the loopholes in the scope of criminal 
Federal liability and in Federal pipeline safety law put by 
previous Congresses on a bipartisan basis.
    AOPL and API also recommend improving PHMSA programs and 
regulations by easing hiring and retention of PHMSA inspectors, 
which we discussed on the first panel, improving due process in 
enforcement proceedings, tailoring requirements to pipeline 
operating status, adjusting incident reporting requirements for 
inflation, and incorporating the latest best practice on 
inspection repair and tank maintenance.
    I look forward to answering any of your questions on these 
proposals, our pipeline safety performance record, or the 
action operators are taking to improve pipeline safety further.
    Thank you.
    [The prepared statement of Mr. Black follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Rush [presiding]. And now the Chair would like to 
recognize Ms. Sames for 5 minutes.

                  STATEMENT OF CHRISTINA SAMES

    Ms. Sames. Chairman Rush, Ranking Member Upton, and 
esteemed members of the committee, thank you for the invitation 
to be here.
    I am Christina Sames, vice president of operations and 
engineering at the American Gas Association. Prior to AGA, I 
worked for the Pipeline Research Council International, which 
is a research consortium, and also spent 12 years within 
PHMSA's Office of Pipeline Safety where I worked on everything 
from regulations on damage prevention to unusually sensitive 
areas and initiative like, well, community assistance, the 
pipeline mapping program, and moving damage prevention forward.
    AGA represents more than 200 local energy companies that 
deliver natural gas to 74 million natural gas customers. 
Natural gas pipelines deliver gas through 2.5 million miles of 
pipeline including 2.2 million miles of local distribution 
pipe.
    The gas utilities distribution pipelines are the last 
critical link to the delivery chain that brings natural gas 
from the well head to the burner tip.
    AGA's members live in the communities they serve and 
interact daily with both customers and regulators to oversee 
pipeline safety locally. Our customers are our neighbors, our 
friends, and our family members.
    The industry uses a variety of tools to ensure the 
integrity of their distribution systems. This includes 
prescriptive and risk-based regulations along with voluntary 
actions.
    A key risk-based regulation used by operators is 
distribution integrity management, a regulatory process that 
allows an operator to develop a unique safety plan specific to 
that system's operating characteristics and risks to determine 
how best to mitigate those risks and to prioritize the work 
that needs to be done. The process strengthens the systems and 
improves safety. Upgrading distribution pipeline systems is 
important to safety and reliability. We currently have 43 
States and the District of Columbia that have expedited 
pipeline replacement programs and over the past 20 years the 
amount of cast iron and bare steel in use has declined 
dramatically, replaced by modern pipelines which increase 
system safety and reliability.
    The distribution industry has proven it can simultaneously 
increase delivery and improve safety. PHMSA data shows the 
distribution incidents have declined as the mileage and 
consumers have increased.
    But while we have come a long way, recent tragic incidents 
demonstrate more needs to be done. The April 10th incident in 
Durham, North Carolina was caused by third-party excavation 
damage, which continues to be the primary cause of distribution 
incidents.
    The tragic incident in Merrimack Valley was unprecedented. 
Why the NTSB is still investigating, they have stated the cause 
was over pressurization of a low-pressure gas distribution 
system.
    Post incident, AGA immediately brought together industry 
experts and published a shared InShare technical paper 
capturing leading practices to prevent over pressurization.
    AGA created a board-level task force to escalate our 
existing pipeline safety efforts and determine what more can be 
done. We hosted a crisis leadership and communications summit 
and developed a technical paper that covers the skills required 
to perform engineering work on a natural gas system.
    AGA's member safety efforts exceed expectation and 
regulations. The AGA board adopted a commitment to enhancing 
safety that lists specific activities above and beyond 
regulation. We participate in peer reviews, bench marking 
activities, safety summits, and other industry programs to 
enhance safety.
    Relative to reauthorization, AGA asks the subcommittee to 
consider three high-level principles. Preserve industry 
engagement and pipeline safety rulemaking by upholding the 
PHMSA regulatory process. Support flexibility in rulemaking by 
recognizing that the gas distribution system differs and avoid 
one-size-fits-all regulations. Don't obstruct pipeline safety 
replacement programs via new mandates that delay pipeline 
replacement or require a replacement faster than work can be 
accomplished safely, reliably, without compromising quality.
    Our full statement covers several pipeline safety 
reauthorization topics. We would like to highlight how integral 
PHMSA's gas pipeline advisory committee process is to the 
pipeline safety rule making.
    Providing stakeholders supporting vital roles which 
includes input from subject matter experts actually accelerates 
rulemaking and their implementation.
    We also support the GPAC cost benefit analysis process. To 
the best of AGA's knowledge, not one single rulemaking has been 
held up by this process.
    More importantly, cost benefit analysis protects the public 
as regulatory costs are ultimately borne by the customers.
    Thank you for the opportunity to participate. I look 
forward to your questions.
    [The prepared statement of Ms. Sames follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Mr. Rush. As chair, I want to thank all of the witnesses 
for their opening statements. This concludes our opening 
statements and we will move now to Member questions and I will 
start by recognizing my friend Mr. Doyle for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman. I appreciate the 
courtesy.
    Pittsburgh has had a record amount of rain over the past 
year that has caused flooding and landslides throughout our 
region. As recently as September of 2018 a landslide in 
neighboring Beaver County caused a pipeline to explode and one 
house was completely destroyed and 30 more homes had to be 
evacuated.
    We know that extreme weather will continue because of 
climate change. Mr. Black and Ms. Sames, how does the industry 
take into account extreme weather events and earth movements 
and how does industry plan to adapt as we are seeing more and 
more of this severe weather?
    Mr. Black. Pipeline operators face requirements today to be 
aware of that operating environment. Earth movements, any 
change. So there is a current requirement right now for that 
pipeline operator to have understood what stress might be 
placed on a pipeline by land movement.
    We have a practice in information sharing among our 
industry and we'll bring pipeline operators together to tell 
stories about incidents or near misses or precautions that were 
taken based on that information.
    If the climate continues to change, pipeline operations 
right now continue--will continue to be faced with those 
requirements and ongoing practices to assess that operating 
environment.
    Mr. Doyle. Ms. Sames?
    Ms. Sames. Congressman Doyle, I am actually from the 
Pittsburgh area originally. I am very familiar with all the 
rain you have had along with other areas of the country.
    So we look at a variety of things. We are looking at new 
flood mapping that is coming out. We are monitoring the 
weather. We are putting sensors on our lines to look for ground 
movement.
    We have been doing this for a while in areas where we have 
seismic activity but we are looking at it now for other areas 
because we are seeing changes, and with changes you have to 
adapt.
    So operators are not including this more in their 
distribution integrity management plans.
    Mr. Doyle. Mr. Weimer, how about you? What should be done 
to properly address climate adaption and resiliency?
    Mr. Weimer. Yes, thanks for the question.
    Clearly, the pipeline operators are supposed to be--have 
control of their pipeline and under integrity management they 
are supposed to look at risks and find out how to mitigate 
those risks. I think as we have seen with changing weather, 
whether it is river scours that caused two releases into the 
Yellowstone River in your area in the Midwest, there has been a 
number of big failures because of ground movement flooding.
    In Texas, there has been failures because of wet soil. When 
the NTSB looked at integrity management they thought it was 
working pretty well for things like corrosion but it wasn't 
working very well for some of these other threats that are 
harder to find.
    So I think we need to get a better handle and the industry 
is working on some of that. We also need to think about it when 
we are siting pipelines. You know, it doesn't make much sense 
to put a pipeline on the side of a hill that can fail.
    So some of the routing of some of those pipelines needs to 
be considered, too.
    Mr. Doyle. How about--you know, Pennsylvania has a history 
of coal mines where we were a coal-producing State and we have 
many abandoned mines throughout our State.
    So subsidence is also a concern for energy infrastructure. 
How is subsidence and geological formations taken into account?
    Ms. Sames. Well, the one good thing with distribution lines 
is many of them are plastic, which means they have a little bit 
more flexibility to move with the ground. It only goes so far, 
which means that where you have a sudden change, a sudden drop, 
a sudden sink hole, which you do experience in Pennsylvania and 
a few other areas, you're focusing on emergency response--how 
do you quickly shut off the gas to that area when there is a 
subsidence that is so fast and so dramatic that it causes the 
pipeline to break.
    Mr. Black. Thinking about your question, Congressman, on 
rivers, the industry updated a recommended practice on waterway 
crossings to address the river scour issue. What once was a 
recommended practice just about calm coastal areas has now been 
upgraded to address the river scour issues.
    Pipeline operators have to take those responsibilities 
seriously and do.
    Mr. Doyle. OK.
    Mr. Chairman, thank you so much. I appreciate the courtesy 
you have shown me and I will yield back.
    Mr. Rush. I thank the gentleman for yielding the chair.
    The Chair now recognizes Mr. Upton for 5 minutes.
    Mr. Upton. Well, thank you again, Mr. Chairman, and I thank 
the panellists for waiting. Aren't you glad we don't have three 
panels, right?
    A couple of questions. Ms. Sames, to follow up on what you 
just said, and I was going to ask about new technologies as we 
look--you know, as we look at this next bill and there has been 
some questions raised about, you know, sort of like plastic and 
paper, plastic and steel. So you indicated that plastic is 
emerging volumewise, I guess you could say, in a lot of new 
pipelines.
    Can you talk a little bit about the advantage or 
disadvantage and where do you think plastic is as it relates to 
steel? What hurdles might be there and help us?
    Ms. Sames. In case it's not obvious, you start talking 
technology with by background I start getting really excited.
    So plastic now takes--accounts for more than 50 percent of 
the distribution pipe. That is increasing because we are 
replacing the cast iron and bare steel.
    Mr. Upton. And that is primarily in gas because oil really 
doesn't work, right?
    Mr. Black. Still coated steel. Yes, Congressman.
    Mr. Upton. I am sorry to interrupt. Go ahead.
    Ms. Sames. That's fine. So some of the benefits of plastic, 
and it only goes up to a certain size, which is why you see on 
the liquid lines and the interstate lines really coated steel.
    But on plastic--on distribution we use a lot of plastic 
because it is flexible, it is easier to insert, it is not 
subject to corrosion. So there's a lot of benefits that we see 
with it.
    And the product has come a long way since the initial--the 
initial products back in the '60s and '70s. So we are seeing a 
shelf life of--lifespan of these plastics--these newer 
plastics--they are predicting well over a hundred years. That 
is pretty darn good.
    The down side of plastic is----
    Mr. Upton. What's the cost difference between----
    Ms. Sames. Definitely cheaper.
    Mr. Upton. Substantial? Is it substantial?
    Ms. Sames. Mm-hmm. Right. Right. So the customers are 
bearing that cost benefit, which is why you see bills so low 
right now between the cost of natural gas and being able to use 
plastic. It is a lot cheaper.
    The one down side with plastic is an issue that we continue 
that struggle with, which is third-party damage. The Durham 
incident, third-party damage again.
    So if you all could find a way to stop the telecoms, the 
water, and sewer lines from hitting us, I would greatly 
appreciate it.
    Mr. Upton. Mr. Black, do you want to comment on it at all 
or not?
    Mr. Black. We are excited about the technology advances. 
They're not in plastics and the liquids but they are about 
inline inspection technologies, leak detection technologies. We 
have encouraged Congress to direct PHMSA to implement a pilot 
program allowing for real-world testing of technology and 
applications. We think that will give them more information 
that they need so that they can update regulations to advance 
technology.
    Mr. Upton. In the last Congress, both Mr. Black's and Ms. 
Sames' organizations submitted letters of support for our 
action to strengthen DOE's cybersecurity program for pipelines. 
We appreciated that.
    This bill has now been introduced--reintroduced as H.R. 
370, Pipeline and LNG Facilities Cybersecurity Preparedness 
Act. Can you continue to support that? I don't know if you have 
taken another look at it. It really hasn't changed. But we 
would--let me just say we would welcome your written support 
for this a second time.
    Ms. Sames. We do support that bill. It gives DOE a great 
coordination role, which I think is very much needed. So yes, 
you continue to have our support.
    Mr. Black. We are glad to support that bill to help it get 
through the committee process. Cybersecurity is important. We 
encourage all of Congress to work on this--a holistic approach 
with energy, transportation, and intelligence-related 
committees.
    An important goal is not having duplication and conflicting 
sets of guidance that could set operators back.
    Mr. Upton. Great. Thank you. I yield back.
    Mr. Rush. Thank you for yielding. The Chair recognizes 
himself for 5 minutes.
    Mr. Weimer, so good to see you again before the 
subcommittee. You have provided your expertise to the members 
of this subcommittee on pipeline safety, reauthorization 
efforts, and we certainly appreciate you being here once again 
with us.
    In your testimony, you stated that since the year 2010, 
despite all the high-profile pipelines incidents, congressional 
interest, NTSB and GAO recommendations, PHMSA is incapable of 
producing new safety rules mostly due to the unique and overly 
burdensome cost benefit requirements that the agency must 
adhere to.
    Why do you call the cost benefit requirement for PHMSA 
unique and how does it contribute to an agency's inability to 
implement significant new rulemaking even when they are 
directed to do so by law?
    Mr. Weimer. Thank you for the question, Chairman Rush. Yes, 
I am on the gas advisory committee for PHMSA and we have 
another board member who is a law professor at the University 
of Arkansas who is on the gas advisory committee. I am on the 
liquid advisory committee.
    Both of these committees often focus on the cost benefit. 
It was put into the statute in the mid-90s and PHMSA, just 
because of timing efforts, was one of the few places where the 
cost benefit requirements landed.
    We don't have a problem with cost benefit. We think it 
makes sense to consider the costs versus the benefits and that 
is already required under executive orders.
    We are not talking about that. We are talking about the 
uniqueness in the statute where the industry can, because of 
the Administrative Procedures Act, can legally challenge that 
and the cost benefit is--the only place we know of it is in the 
PHMSA statute.
    Other places like EPA and some other agencies have mention 
of cost benefit. But it is not--they don't have to justify the 
cost the way PHMSA does.
    Even a former Administrator, just two Administrators back, 
has recently said that one of her frustrations as Administrator 
was trying to get rules passed because of the cost benefit 
statute, and you see it slowing things down because PHMSA 
doesn't always have enough data to justify the cost because 
they have to get that data from the industry.
    So the industry comes forward with any rulemaking and says 
things are going to cost billions and billions of dollars and 
PHMSA really can't argue with that. Good information to know.
    The committee should certainly take that into 
consideration. But it shouldn't be the only way you can get a 
rule passed.
    Mr. Rush. What kind of corrective strategies would you 
recommend that the Congress take?
    Mr. Weimer. Well, I think in our testimony we provided some 
red line version of what cost benefit language got put into the 
statute in the '90s and we recommended that that be removed to 
make it more of an even playing field with just about every 
other statute we see.
    Mr. Rush. You feel very strongly about the need for 
enacting minimum standards for the 435,000 miles of natural gas 
gathering lines traversing our Nation.
    What are the dangers, in your opinion, of leaving those 
lines unregulated?
    Mr. Weimer. Thank you for that question. Yes, it is pretty 
amazing. As the shale plays have turned out in this country, 
especially in places like Pennsylvania, you know, rapidly there 
was hundreds of thousands of miles of new gathering lines put 
in.
    A lot of those shale plays have pressures coming out of the 
ground at much higher pressures. So the pipelines going in are 
larger and much higher pressure. They are basically the same as 
gas transmission pipelines that are already fairly well 
regulated.
    These pipelines run right past homes. Even in rural areas 
they run past clusters of homes. Were it failed, it would be 
the same as a failure of a gas transmission pipeline and in 
most places they are completely and totally unregulated.
    So, you know, to prevent failure so people don't show up in 
front of this committee again with the latest failure minimum 
standards for these gathering lines need to be enacted.
    Mr. Rush. My time is up. I certainly want to thank you very 
much.
    The Chair now recognizes Mr. Latta from Ohio for 5 minutes.
    Mr. Latta. Thank you, Mr. Chairman, and thanks to our panel 
of witnesses today for appearing.
    Mr. Black, if I could start with you. You said something 
kind of interesting that we talk about in this committee a lot.
    Energy and Commerce is a great committee. We have very 
broad jurisdiction. We think it is the best committee in 
Congress--not only think, we believe it.
    But you said something that we really believe, because what 
we see in this committee are technologies and inventions that 
are really 5 to 10 years out and so one of the things we have 
to be careful when we are, you know, working on legislation is 
to make sure that we are not hindering the progress out there 
in the community.
    And you have mentioned that--on, you know, making sure that 
the Federal regulations, you know, keep pace in what you're all 
doing out there. But what I would like to do is--my first 
question I would like you to go, if you would further expand on 
your testimony and comments regarding a pilot program to test 
cutting-edge safety technologies.
    And would you tell us about what those new technologies are 
and are available out there and how they might offer the 
opportunity for further improvement for pipeline safety?
    Mr. Black. I will give you one example. Pipeline integrity 
management regulations are almost 20 years old. That is before 
the iPhone. We had smart pigs then but they weren't nearly as 
smart as they are now. Right now, there are improved 
technologies of travel inside the pipeline collecting data.
    At the same time that we now have terabytes of data on 
pipeline features whereas we didn't before, we also have better 
analytical techniques to know what that increased information 
tells us. Yet, the PHMSA regulations are almost 20 years old 
and are not up to date.
    So the latest know-how and techniques on prioritizing risks 
in pipelines is not what PHMSA is requiring operators to do. 
Repair criteria updates are not in what we understand would be 
the next hazards liquids rule that is moved.
    We can see PHMSA needing real-world experiences from a 
controlled environment by selecting pipeline operators to test 
any new technologies. It could be leak detection technologies. 
It could be scheduling repairs and maintenance under new 
analytical techniques.
    If they can gather information like that, they can have 
more confidence to update regulations in the manner that they 
should with equivalent or better level of safety, maybe they 
won't be so slow.
    Mr. Latta. Well, I assume you have discussions with PHMSA 
on a frequent basis. When you bring this up to them, what do 
they say about upgrading those regulations that bring this new 
technology out?
    Mr. Black. Well, they know that it's important to us that 
integrity management regulations be updated. You have heard 
Administrator Elliott say that he is open to pilots.
    We hope this would be an issue that they would work on. 
They also have the special permit process which has been 
cumbersome and slow and only allows one operator to get a 
waiver for an equivalent level of safety or better.
    It may be ill-suited to pipeline integrity management 
regulations. But it is something that we need to consider with 
them.
    The industry just released API-recommended practice 1160. 
That is all about performing maintenance and repairs on 
pipelines and as the Administrator said they have a goal--we 
all have a goal in avoiding spending resources on issues that 
aren't high priority and making sure that we are on high 
priority.
    Whatever it takes, whether it is congressional action or a 
pilot program or a repair permit or a rulemaking we need to 
update those regulations.
    Mr. Latta. Thank you.
    Just continuing on this topic, we know that the technology 
is ever changing and adapting. But, again, what do you--how do 
we get to that point of working with the agency to make sure we 
get those technologies out there?
    Mr. Black. Well, we found the model in the motor carrier 
statute at the Department of Transportation. They have the 
authority to do this pilot program, and if Congress directs 
them to do that and creates that authority, hopefully, that is 
something that they will create.
    We also have rich exchanges on research and development 
advances. They are funding research and development. We are 
funding research and development.
    The collaboration between the two is episodic and not as 
good as it should be. One of our proposals is that Congress 
direct PHMSA to review its research and development programs 
and have us do it within the entities that Mr. Weimer was 
describing--the liquid and gas pipeline advisory committees.
    If you put that in the statute that that is something that 
PHMSA should be doing, we believe that will maybe force more 
regular and frequent and fast discussions of R&D advances 
because we share the same goal--zero incidents, improving 
pipeline safety and technology.
    Mr. Latta. Thank you.
    Mr. Chairman, my time has expired and I yield back.
    Mr. Rush. I want to thank the gentleman for yielding back.
    Mr. Walberg is--no, I am sorry. Mr. Olson is recognized for 
5 minutes.
    Mr. Olson. I thank the Chair, and welcome to the second 
panel.
    I want to start by thanking each of your organizations for 
your performance--of pipeline performances during Hurricane 
Harvey.
    Hurricane Harvey hit southeast Texas in late August of 
2017. Parts of my home received 5 feet of rain over 2 days. The 
largest petrochemical complex in the world is along the Houston 
Ship Channel, which is 52 miles long.
    It is America's largest exporting port for the last 10 
years. All that product comes from Eagle Ford, Permian Basin, 
somewhere else. It got there without a major spill--major 
incident.
    So thank you, thank you, thank you. Hurricane Harvey shows 
how safe you guys are.
    Our first question is for you, Mr. Black and Ms. Sames. As 
they mentioned on the first panel, Texas 22 is booming. One 
example--our population, we think, will be over one million in 
the next Census. It has grown almost 30 percent in the last 10 
years.
    As the population keeps increasing, people are moving to 
areas that were rural before. There were pipelines there, and 
so with all that traffic flowing to the Port of Houston, the 
port of Freeport, coming from the west Permian Basin flows 
through Fort Bend County. Can't get there without Fort Bend 
County.
    So can you all please talk about how the industry works 
with new communities as they are built around existing 
pipelines? How to make sure that first responders and others 
know what the risks are?
    Mr. Black.
    Mr. Black. Well, you are certainly right, Congressman, that 
not only is the population of that area in your district 
growing but the benefits within Texas of increased oil and gas 
production are helping Houstonians and others have benefit from 
lower prices, more availability to U.S. and North American 
supplies.
    It is important for us to expand pipeline capacity to help 
feed those needs and to make sure that the public along the 
existing route is aware of pipelines that are there.
    We are ready to work with anybody that is constructing a 
pipeline to make sure that they are safely not threatening the 
pipeline. The ``call before you dig'' program and public 
awareness programs are very important.
    Mr. Olson. Ms. Sames, your comments, ma'am?
    Ms. Sames. Well, in addition to what Andy said, there is 
also the Pipeline Informed Planning Alliance document that 
helps to--helps communities as they are building around 
existing pipelines. There are a lot of great practices in 
there.
    It was a collaborative effort that included, you know, the 
Pipeline Safety Trust, the oil industry, the gas industry, 
emergency responders, Governors, cities. I lost count of how 
many. It is a good document and it really provides guidance 
around how communities can build safely around these existing 
pipelines--these larger existing pipelines.
    Simple things like if you're building a school near an 
existing pipeline put the parking lot near the pipeline, not 
the school, but also make sure that there is a good exit so 
that when people--if something happens in that small stretch 
that they have an escape route. It is things like that that are 
within the document. Hopefully, they will consider it.
    Mr. Olson. I thank you, too, because pipelines provide 
green space all over Fort Bend County and Brazoria County. A 
park right by my house, the biggest park my hometown of Sugar 
Land has, is built over an existing pipeline. The markers are 
all along the park. But it's a park and people are there. 
They're flying kites. They've got this little dirt bike trail. 
That is because a pipeline is there. That land is available. It 
would have been taken up but that pipeline gave us green space. 
So thank you for that.
    I want to get back to the staffing issues I talked about 
with PHMSA in the first panel. You know, they can't function 
without the right agents, the right people in place, and 
sometimes, I mentioned, they get poached because their people 
are so good.
    Mr. Doyle left, but he and I have a bill to give FERC a 
sort of waiver to keep employees, pay them higher than average 
Federal salary. That has happened for the SCC. Would you 
support that going through PHMSA, having that have more 
financial resources to keep the people they've got?
    Mr. Black. I will tell you about the proposal that we have 
made to the Congress on this and the committee. We understand 
that if PHMSA had Schedule A hiring authority for its 
inspectors, they would be able to better attract and retain 
pipeline operators.
    From what we have learned about the Federal personnel 
process, that would help. It is in all of our interests for 
PHMSA to be able to have quality inspectors on the job. I 
haven't studied your bill. I am happy to do that. But the 
spirit of being able to have PHMSA maintain quality inspectors 
is one we support.
    Mr. Olson. Thank you. One final comment, and this is a 
question for you, Mr. Black. Are the Horned Frogs going to beat 
the Sooners this year in football?
    Mr. Black. Well, as a TCU grad, they should every year. 
Yes, sir.
    [Laughter.]
    Mr. Olson. OK.
    Mr. Rush. The gentleman from Michigan, Mr. Walberg, for 5 
minutes.
    Mr. Walberg. Thank you, Mr. Chairman. Thanks to the panel.
    Mr. Black and Ms. Sames, I think you share some of the 
frustrations regarding PHMSA's inability to comply with 
congressional mandates relating to pipeline safety rulemakings.
    In your view, what is keeping PHMSA from complying with 
deadlines on their significant rulemakings?
    Mr. Black?
    Mr. Black. Congressman, we believe there was a strategic 
mistake by the last administration to lump many large complex 
issues into a few mega rulemakings. The rulemaking process is 
not build for that.
    We believe that they should have separated them out. The 
Administrator has acknowledged that and that is what they are 
doing. We don't believe cost benefit requirements are what 
delayed those rules.
    Now, certainly, if a proposal is overly broad it deserves 
to be reviewed further. We think the American people, who 
ultimately pay the cost of regulations, deserve to know that 
the benefits outweigh the costs and we think cost benefit 
analysis improves regulations.
    Lastly, some of the proposals that we have seen to remove 
cost benefit from the PHMSA statute risks, number one, later--
longer delays because the Office of Management and Budget might 
return something to PHMSA that hasn't had cost benefit 
analysis.
    And, two, I would hate to end the requirement that a risk 
benefit analysis and a cost benefit go before the public 
advisory committee that Carl and our industry reps are on. 
Those are great discussions to improve regulations.
    We think, to answer your question, it has been mistakes of 
just lumping too many things in mega rules. That is why they 
were delayed. They are recovering now.
    Mr. Walberg. Ms. Sames, any additions there?
    Ms. Sames. I fully agree with Mr. Black. But in addition, 
just an observation. It is my opinion, my observation, that 
PHMSA's staff--technical staff--are pretty darn good at moving 
things forward after the advisory committee meets.
    It appears that something is occurring after it leaves 
their technical office to that rulemaking. I don't know exactly 
what it is but----
    Mr. Walberg. Does OMB add to the delays?
    Ms. Sames. I am sure that there are some with OMB. But it 
appears that there may be things beyond PHMSA within the 
department that may also be holding things back a little bit. I 
don't know where the obstacle is.
    But I can tell you that the industry is very frustrated. We 
like certainty. How often do you have the industry sending in 
letters to the secretary asking for them to move a rulemaking 
forward? And we have been doing that.
    Mr. Walberg. Thank you.
    Ms. Sames, in your written testimony you highlight that 
every natural gas distribution system is different in terms of 
design, use, age, location, external risks, operating history, 
current operating conditions, et cetera, et cetera.
    Could you please talk about how, as a result of these 
differences, prescriptive regulations that take basically a 
one-size-fits-all approach might not be the best idea?
    Ms. Sames. Thank you for the question.
    Distribution lines are really different from the 
interstates and the liquid. You have--for example, on 
distribution you have plastic. You have steel. You have coated 
steel. You have bare steel. You have all of these different 
materials that were put in over the ages.
    You also have different pressures and different sizes. It's 
just very unique compared to everything else.
    So when you get a prescriptive regulation it doesn't take 
any of that into account and I will give you an example. 
Atmospheric corrosion surveys are done every 3 years. Now, if 
you are in a desert environment you may not need an atmospheric 
corrosion survey every 3 years.
    However, if you are along the ocean you probably need it 
more frequently, which is why it is important to have not only 
those prescriptive regulations but also the risk-based 
regulations that we get through integrity management. That kind 
of balances things out of it.
    Mr. Walberg. OK. On the first panel I asked about the role 
of States like Michigan, which have robust inspection programs 
themselves, play in pipeline safety--specifically, their 
coordination with PHMSA.
    Has this model helped your Michigan utilities meet higher 
safety standards at low regulatory burden as they invest in 
transitioning away from the old cast iron or steel distribution 
pipes?
    Ms. Sames. I think it has because the local inspectors know 
the environment. They know the operators. They're spending a 
lot of time with the distribution operators and that allows 
them to collectively move safety forward in a way that is the 
lowest cost to the customers.
    The members that I have, they are all publicly traded 
utilities for the most part, which means that their rates are 
going through the commissions and it really is a partnership--
how do you improve safety, how do you do things the right way 
at the lowest cost to the customer and the least burden.
    Mr. Walberg. And they should have a better grasp on the 
situations?
    Ms. Sames. Correct, because they are there. They live and 
work in the same communities that we are serving.
    Mr. Walberg. Thank you. I yield back.
    Ms. Sames. You are welcome.
    Mr. Rush. The Chair now recognizes the gentleman from 
Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much. I appreciate it, Mr. 
Chairman.
    Mr. Black, earlier you indicated that, you know, there were 
concerns about a tax on pipelines and I share that, and I 
understand you also have indicated in speaking with Mr. Latta 
that, you know, one of the things we can do is to have 
voluntary compliance and so forth.
    But one of my concerns is, as you heard me on the previous 
panel, is we got pipelines going in the ground, you know, as we 
speak or in the process. They are not in the grounds yet. Once 
we get them in the ground we are not going to put new 
technology--you know, we are not going to say ``Dig it up'' 5 
years from now and put in the new technology.
    And so the concern is why aren't the companies putting 
those pipelines in the ground now, putting in the technology? 
And, again, there may be others.
    But, you know, I had a demonstration of what could be used 
with the fiber optics and, of course, you'd have to have some 
broadband in the area so we'd have to work on that.
    But the fiber optics that will tell you if somebody is--if 
there is a leak that just occurs naturally or if somebody is 
making an attack on a pipeline that's underground they can see 
it, you know, live action and get out there and do something 
about it before the harm you indicated, which I agree with you, 
could be harm to the community.
    You know, it's not just about stopping the pipeline. There 
could be an environmental risk. There's a risk of explosion or 
fire or whatever. So if the industry is not already doing it, 
it seems to me that would be smart.
    In fact, as a recovering attorney, let me posit that 
because that technology is out there the gas companies might 
very well be at risk of having not used the best equipment and 
may have some liability damages in the future.
    So why aren't they doing it? And that makes me worry that 
voluntary doesn't work and that we may need to have, you know, 
regulatory that says, you know, if there's something out there 
that increases public safety we ought to do it.
    What say you?
    Mr. Black. We are excited about leak detection technology 
development. I know operators are talking with vendors about 
technologies to see, sniff, and hear signs of small leaks, 
which are the hardest ones to detect.
    That can include acoustic smart balls, fiber optic cables. 
I have heard of copper cables with conductors. PHMSA conducted 
a study on leak detection technologies as a result of a mandate 
from Congress.
    We heard what you alluded to on the first panel. Sometimes 
the claims of performance--we are not sure yet about how they 
will do road tested. So operators have having those 
conversations right now and hoping to be able to have 
confidence in those technologies.
    I am aware of several pilot programs, not in a DOT pilot 
but in a company sense, where they're testing some of those new 
technologies. We think the pilot program will help an operator 
work with PHMSA and try and implement, hey, this is how we want 
to do for leak detection--are you OK on that.
    Mr. Griffith. But here is the problem with my constituents, 
and there are two coming through Virginia. One comes directly 
through my district. Another one is a little bit further north.
    OK, great. You do a pilot project. Wouldn't it make more 
sense to go ahead and put that in the ground now? Because 
they're not--once the pilot project comes back and says yes, it 
works, they're not going to dig up the corridor over hundreds 
of miles and suddenly put down that technology that works.
    So aren't we--if we had something that already could do 
that and you said, well, the new stuff doesn't work any better 
than the old stuff, I would say, OK, let's wait and see or--but 
we don't have anything that will give us that detection and at 
least with the one technology, and again, I admit there are 
others that are probably out there, it changes the temperature 
of the gourd.
    They can tell immediately if there's a leak out there and 
it would seem to me that the companies would want to do this 
and put it down in advance and then if you needed the software 
upgrades down the road you might be able to do that a whole lot 
easier than--I mean, the ditches are dug right now and they are 
laying the pipe. Why aren't they doing it, and that is what 
calls into question for me voluntary versus us having some 
regulations.
    Now, if it's going to take us 20 years to get the 
regulations that isn't going to work either. I am not sure 
there is an answer to that, Mr. Black. Let me go to Ms. Sames 
for something different because you have referenced it, I 
think. But the finalizing of the rulemaking on the automatic 
shut off valves and remote controlled shut off valves which, to 
me, makes a lot of sense and I think that's the one you're 
asking them to hurry up and get it done.
    But can you explain for the public the difference between 
the transmission and distribution systems and what 
considerations need to be made on these auto shut offs for each 
of those?
    Ms. Sames. Sure. So automatic and remotely controlled 
valves we are putting them on our intrastate transmission. I 
can't speak to the interstates. But we are putting them on our 
intrastates where we have what I will call consistent pressure.
    The problem with automatic shut off valves is they sense a 
pressure drop, which means that if you have pressure 
fluctuations in the line, it is going to shut off and now you 
are shutting off customers, which is why they tend not to work 
as you get further downstream.
    You have too many pressure fluctuations because people are 
turning on their stoves. They are turning on their furnaces. 
They are using more natural gas, which is sucking the gas from 
the system which is dropping the pressure.
    We are very supportive of them in many instances where you 
don't have those pressure fluctuations.
    Mr. Griffith. Well, how about the--and I know you said it 
was--you were doing intra but how about that 42-inch pipe 
coming through my district? Wouldn't that work better there?
    Ms. Sames. I cannot speak to that one, sir.
    Mr. Griffith. Yes, ma'am. I appreciate it.
    I yield back, Mr. Chairman. Thank you.
    Mr. Rush. I thank the gentleman, and I want to thank all 
the witnesses for your patience and for your participation in 
today's hearing, and I want to also remind Members that, 
pursuant to committee rules, you have 10 business days to 
submit additional questions for the record, which will be 
answered by the witnesses who have appeared before the 
subcommittee, and I ask each witness to respond promptly to any 
such questions that you may receive.
    And this--we have a unanimous consent request to enter into 
the record the following information: a letter from the 
American Public Gas Association, a letter from the Interstate 
Natural Gas Association of America, a letter from the National 
Association of Regulatory Utility Commissioners, a letter from 
the Alliance for Innovation and Infrastructure.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. And the Chair now adjourns this committee.
    At this time, the committee stands adjourned. Thank you.
    [Whereupon, at 1:24 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    

                                 <all>
</pre></body></html>
